44
t

APPENDIX A”

Case: 15-11369

Date f{fedt 0^/01/2016

Page: 1 of 1

UNITED STATES COURT OF APPEALS
For the Eleventh Circuit
No. 15-11369
District Court Docket No.
9:15-cv-80102-KLR
JOEL BARCELONA,
Plaintiff - Appellant,
versus
SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS,
WARDEN, SOUTH BAY CORRECTIONAL FACILITY,
CORRECTIONS HEALTH CARE (C.H.C.),
Defendants - Appellees.

Appeal from the United States District Court for the
Southern District of Florida
JUDGMENT
It is hereby ordered, adjudged, and decreed that the opinion issued on this date in this appeal is
entered as the judgment of this Court.
Entered: August 03, 2016
For the Court: DAVID J. SMITH, Clerk of Court
By: Djuanna Clark

ISSUED AS MANDATE 09/01/2016

/

Case: 15-11369

Date Filed: 08/03/2016

Page: 1 of 7
[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 15-11369
Non-Argument Calendar
D.C. Docket No. 9:15-cv-80102-KLR

JOEL BARCELONA,
Plaintiff - Appellant,
versus
SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS,
WARDEN, SOUTH BAY CORRECTIONAL FACILITY,
CORRECTIONS HEALTH CARE (C.H.C.),
Defendants - Appellees.

Appeal from the United States District Court
for the Southern District of Florida
(August 3, 2016)
Before HULL, MARCUS and DUBINA, Circuit Judges.
PER CURIAM:

Case: 15-11369

Date Filed: 08/03/2016

Page: 2 of 7

I. BACKGROUND
Appellant, Joel Barcelona (“Barcelona”) a Florida state prisoner, filed a pro
se 42 U.S.C. § 1983 complaint against state prison officials, alleging that the
officials denied him adequate medical care. More specifically, Barcelona alleged
that he had lost all hearing in his right ear; that a prison doctor conducted tests and
recommended that he be fitted for a hearing aid; and that a non-medical corrections
official had refused to authorize payment for the hearing aid because Barcelona
could still hear from his left ear. Barcelona also alleged that he had been denied
adequate medical treatment for a fungal disease, which caused him to suffer with a
swollen nail.
The case was referred to a magistrate judge who screened Barcelona’s
complaint pursuant to 28 U.S.C. § 1915(e)(2)(B). Subsequently, the magistrate
judge issued a report and recommendation (“R&R”), recommending dismissal of
Barcelona’s complaint for failure to state a claim. The magistrate judge first
concluded that Barcelona’s loss of hearing in his right ear was not a serious
medical need for purposes of a § 1983 claim because Barcelona still had hearing in
his left ear. The magistrate judge then noted that the record contradicted
Barcelona’s claim of deliberate indifference by prison personnel because he had
been attended by a prison doctor and had undergone medical tests on multiple
2

Case: 15-11369

Date Filed: 08/03/2016

Page: 3 of 7

occasions. Finally, the magistrate judge concluded that Barcelona’s sparse, onesentence allegation of a fungal disease did not state a plausible claim because it did
not establish a serious medical condition.
Barcelona objected to the R&R regarding the district court’s disposition of
his hearing aid claim, but he did not object with regard to the district court’s
dismissal of his alleged fungal disease claim.1i The district court overruled
Barcelona’s objections, adopted the R&R, and dismissed Barcelona’s complaint
for failure to state a claim. Barcelona then perfected this appeal.
II. ISSUE
Whether the district court erred in its sua sponte dismissal of
Barcelona’s complaint for failure to state a claim under 28 U.S.C. §
1915(e)(2)(B).
III. STANDARD OF REVIEW
This court reviews de novo a district court’s sua sponte dismissal for failure
to state a claim under § 1915(e)(2)(B), viewing all of the allegations in the
complaint as true and liberally construing pro se pleadings. Alba v. Montford, 517
F.3d 1249, 1252 (11th Cir. 2008).
Not only did Barcelona not address the nail fungal disease in his objections to the
magistrate judge’s R&R but he also makes no argument in his initial briefs to this court
regarding the alleged nail fungus. Accordingly, we decline to consider this issue because we
deem it abandoned. See Timson v. Sampson, 518 F.3d 870, 874 (11th Cir. 2008) (issues not
briefed on appeal by a pro se litigant are deemed abandoned).
3

Case: 15-11369

Date Filed: 08/03/2016

Page: 4 of 7

IV. DISCUSSION
Deliberate indifference to an inmate’s serious medical needs violates the
Eighth Amendment. Estelle v. Gamble, 429 U.S. 97, 104, 97 S. Ct. 285, 291
(1976). “[A] serious medical need is considered one that has been diagnosed by a
physician as mandating treatment or one that is so obvious that even a lay person
would easily recognize the necessity for a doctor’s attention.” Farrow v. West, 320
F.3d 1235, 1243 (11th Cir. 2003) (internal quotation marks omitted). “Medical
treatment violates the [EJighth [A]mendment only when it is so grossly
incompetent, inadequate, or excessive as to shock the conscience or to be
intolerable to fundamental fairness.” Harris v. Thigpen, 941 F.2d 1495, 1505 (11th
Cir. 1991) (internal quotation marks omitted).
Deliberate indifference has three components the plaintiff must satisfy: he
must show a prison official’s “(1) subjective knowledge of a risk of serious harm;
(2) disregard of that risk; (3) by conduct that is more than mere negligence.”
Bingham v. Thomas, 654 F.3d 1171, 1176 (11th Cir. 2011) (internal quotation
marks omitted). “Conduct that is more than mere negligence includes: (1) grossly
inadequate care; (2) a decision to take an easier but less efficacious course of
treatment; and (3) medical care that is so cursory as to amount to no treatment at
all.” Id. A prison official “who delays necessary treatment for non-medical
4

Case: 15-11369

Date Filed: 08/03/2016

Page: 5 of 7

reasons may exhibit deliberate indifference.” Id. Finally, “[a]n Eighth
Amendment violation may also occur when state officials knowingly interfere with
a physician’s prescribed course of treatment. Id.
We conclude from this record that the district court erred in dismissing
Barcelona’s complaint before the state filed a response or the parties had
conducted any discovery in this case. We have opined that “[substantial hearing
loss that can be remedied by a hearing aid can present an objectively serious
medical need.” Gilmore v. Hodges, 738 F.3d 266, 276 (11th Cir. 2013). In
Gilmore, we concluded that correctional officers could be deemed deliberately
indifferent for failing to provide hearing aid batteries to a prisoner who the officers
knew required a hearing aid to treat his hearing impediment. Id. Even so, “not all
hearing loss amounts to a serious medical condition.” Id. In particular, this court
reasoned, that where hearing loss does not prevent a plaintiff from carrying on a
conversation or hearing and following directions without a hearing aid, “a court
would be hard pressed to classify the plaintiffs impairment as a serious medical
need.” Id. at 276-77.
In his complaint, Barcelona alleged that he had lost hearing in his right ear
and that two doctors who examined him prescribed a hearing aid to treat his
hearing loss. Assuming the truth of these allegations, which we must, it appears
5

Case: 15-11369

Date Filed: 08/03/2016

Page: 6 of 7

that Barcelona has stated a non-frivolous claim and that the district court erred in
dismissing his complaint under § 1915(e)(2)(B). Alba, 517 F.3d at 1252. Though
Barcelona might not ultimately succeed on his claim because “not all hearing loss
amounts to a serious medical condition,” that is not the issue before us. The only
issue before us in this appeal is whether the district court erred in sua sponte
dismissing Barcelona’s complaint for failure to state a claim. Barcelona’s
allegations indicate that although he retains some ability to hear from his left ear, it
is not clear from the present undeveloped record that his hearing loss does not
prevent him from carrying on a conversation or hearing and following directions
from correctional officers. We deem the allegations in Barcelona’s complaint as
falling between the two sets of circumstances described in Gilmore - substantial
hearing loss that can be remedied by a hearing aid, and hearing loss that does not
prevent a prisoner from carrying on a conversation or hearing directions from
correctional officers without a hearing aid - and this court has not yet addressed
whether a prisoner’s loss of hearing in one ear, which leads a doctor to prescribe a
hearing aid, is insufficient to constitute a serious medical need where the prisoner
retains some level of hearing in his other ear.
Regarding his claim of deliberate indifference, Barcelona alleged in his
complaint that prison officials became aware of his hearing loss after providing
6

Case: 15-11369

Date Filed: 08/03/2016

Page: 7 of 7

him multiple medical consultations, but failed to provide him with a hearing aid.
Again, accepting the truth of these allegations, which we must, we conclude that
Barcelona has made a non-ffivolous argument that the failure to provide him a
hearing aid was “more than mere negligence” because, although the medical care
he was provided was sufficient to diagnose his hearing loss, it could plausibly be
argued that the failure to provide him a hearing aid “amount[ed] to no treatment at
all” because a hearing aid was the only prescribed treatment for his impediment.
Bingham, 654 F.3d at 1176. His assertion that a non-medical official denied him a
hearing aid for non-medical reasons does not preclude his present claim because
this court has noted that a prison official’s interference with, or delay of, prescribed
medical treatment can constitute deliberate indifference. Id. Therefore, we
conclude the district court erred by sua sponte dismissing Barcelona’s complaint
under § 1915(e)(2)(B) before a response from the state and any discovery.
Accordingly, for the aforementioned reasons, we vacate the district court’s
order adopting the magistrate judge’s R&R and remand this case for further
proceedings consistent with this opinion.
VACATED and REMANDED.

7

a - xidNaddY

Case: 9:15-cv-80102-RLR

Document #: 129 Entered on FLSD Docket: 06/19/2019

Page 1 of 2

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 9:15-CV-80102-ROSENBERG/REID
JOEL BARCELONA,
Plaintiff,
v.

JULIE L. JONES, et al„
Defendants.
/ '

ORDER REFERRING CASE TO VOLUNTEER ATTORNEY PROGRAM
This matter is before the Court sua sponte. The Court has discretion to appoint counsel
in cases where a litigant is proceeding pro se. 28 U.S.C. § 1915(d); see also Dean v. Barber, 951
F.2d 1210, 1216 (11th Cir. 1992). The Court has reviewed the case file and has determined that
there is good cause to refer this case to the Court’s Volunteer Attorney Program, given the
advanced stage of this litigation.
Accordingly, it is ORDERED that this matter is hereby referred to the Court’s Volunteer
Attorney Program, where a volunteer attorney may accept the representation on a pro bono basis,
if so desired. It is
FURTHER ORDERED that the Clerk of Court will obtain a description of the case and
contact information to post on the Court’s website of available pro bono cases seeking volunteer
lawyers. It is
FURTHER ORDERED that if the representation is accepted, the volunteer attorney
shall enter an appearance in the case and thereafter will be eligible for reimbursement of
reasonable litigation expenses pursuant to the Court’s Reimbursement Guidelines for Volunteer
Counsel. It is

Case: 9:15-cv-80l02-RLR

Document #: 129 Entered on FLSD Docket: 06/19/2019

Page 2 ot 2

FURTHER ORDERED that this Order has no effect on the status of this case. Plaintiff
is proceeding pro se, and must comply with all requirements and Orders of this Court, unless and
until an attorney appears on his behalf.
DONE AND ORDERED in Chambers at West Palm Beach, Florida, this 19th day of
June, 2019.

f/

1/

4

ROBIN L. ROSENBERG N
UNITED STATES DISTRICT JUD
Copies to: Counsel of Record, Clerk of Court, and
Joel Barcelona
M50331
Northwest Florida Reception Center
Inmate Mail/Parcels
4455 Sam Mitchell Drive
Chipley, FL 32428
PRO SE

s

D - XldNHddV

Case: 9:15-cv-80102-RLR

Document#: 128 Entered on FLSD Docket: 06/19/2019

Page lot9

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 9:15-CV-80102-ROSENBERG/REID
JOEL BARCELONA,
Plaintiff,
v.
JULIE L. JONES, et al.,
Defendants.

ORDER SETTING STATUS
CONFERENCE. TRIAL DATE. AND PRETRIAL DEADLINES
This Court enters the following Order to apprise the parties of the trial date in this case and
to establish certain pretrial procedures. The Court is aware that Magistrate Judge Reid has recently
issued a Report and Recommendations (“Report”) on the Defendants’ Motions for Summary
Judgment, DE 125, and the parties have not yet had an opportunity to file any objections to that
Report. Once the parties have had an opportunity to object to the Report, this Court will endeavor to
expeditiously resolve the Report and the Motions. In the interim, the Court issues this Order setting
trial in fairness to all parties so that the parties are fully aware of the trial schedule in the event that
the Motions for Summary Judgment are denied and this case proceeds to trial.
Many of the procedures delineated in this Order are unique to the undersigned and, as a
result, the parties should carefully review this Order. This Order establishes pretrial deadlines. It is
the Court’s intention that this Order will provide the parties with all of the information they need to
litigate before this Court.

Case: 9:15-cv-80102-RLR

Document#: 128 Entered on FLSD Docket: 06/19/2019

Page 2 of 9

The parties shall comply with the undersigned’s rules as follows:

1. TRIAL. CALENDAR CALL. AND STATUS CONFERENCE
PLEASE TAKE NOTICE that the above-captioned cause is hereby set for Trial before the
Honorable Robin L. Rosenberg, United States District Judge, at the United States District Court at
701 Clematis Street, Fourth Floor, Courtroom 2, West Palm Beach, Florida, on September 11.
2019 at 9:00 a.m., or as soon thereafter as the case may be called.
PLEASE TAKE FURTHER NOTICE that a Status Conference will be held on July 31.
2019 at 9:30 a.m., and a Calendar Call will be held on August 14, 2019 at 9:00 a.m.
2. PRETRIAL DEADLINES
July 12, 2019: All Pretrial Motions, including Daubert motions, and motions in limine shall
be filed.
August 12, 2019: Joint Pretrial Stipulation shall be filed. Designations of deposition
testimony shall be made. Parties shall also exchange Rule 26(a)(3) witness and exhibit lists.
The parties’ joint trial plan is also due (see below for details).
August 19, 2019: Counter-designations of deposition testimony and objections to
designations of deposition testimony shall be filed. Late designations shall not be admissible
absent exigent circumstances.
August 26, 2019: Objections to counter-designations of deposition testimony and responses
to objections to designations of deposition testimony shall be filed.
September 3, 2019: Jury Instructions or Proposed Findings of Fact and Conclusions of Law
shall be filed. The parties’ deposition designation notebook, if applicable, is also due. The
parties’ obligation to deliver a deposition designation notebook, together with legal
argument on all pending objections, does not relieve the parties of their obligation to file the
documents outlined above. See section 14.
Page 2 of 9

Case: 9:15-cv-80102-RLR

Document #: 128 Entered on FLSD Docket: 06/19/2019

Page 3 of 9

In the event the parties are concerned with their ability to meet all pretrial deadlines and to
be fully prepared to be able to try this case at the scheduled time, the parties may consider
consenting to magistrate judge jurisdiction as a magistrate judge may be able to afford the parties
greater latitude with respect to these deadlines. However, nothing in this Order shall preclude any
party from moving for an extension of pretrial deadlines or a continuance of trial.
3. JURY TRIALS
In addition to filing their proposed jury instructions with the Clerk (the date for filing the
proposed jury instructions is set forth in the pretrial scheduling order), the parties shall also submit
A SINGLE JOINT SET of proposed jury instructions and verdict form in Word format directly to
Rosenberg@flsd.uscourts.gov.1 To the extent these instructions are based upon the Eleventh
Circuit pattern jury instructions, counsel shall indicate the appropriate Eleventh Circuit pattern
jury instruction upon which their instruction is modeled.

All other instructions shall include

citations to relevant supporting case law.
The parties need not agree on the proposed language of each instruction or question on the
verdict form. Where the parties do agree on a proposed instruction or question, that instruction or
question shall be set forth in Times New Roman 14 point typeface. Instructions and questions
proposed only by the plaintiff(s) to which the defendant(s) object shall be italicized. Instructions
and questions proposed only by defendant(s) to which plaintiff(s) object shall be bold-faced. Each
jury instruction shall be typed on a separate page and, except for Eleventh Circuit pattern
instructions clearly identified as such, must be supported by citations to authority. In preparing the
requested jury instructions, the parties shall use as a guide the pattern jury instructions for civil
cases approved by the Eleventh Circuit, including the directions to counsel contained therein.

1 The joint set of proposed jury instructions should include both preliminary jury instructions (from the appropriate
Eleventh Circuit pattern instructions) as well as final jury instructions. Proposed voir dire questions and verdict forms
should be e-mailed in Word format to this e-mail address as well.

Page 3 of 9

Case: 9:15-cv-80102-RLR

Document #: 128 Entered on FLSD Docket: 06/19/2019

Page 4 of 9

4. BENCH TRIALS
An additional copy of all proposed Findings of Fact and Conclusions of Law (the date for
filing the proposed Findings of Fact and Conclusion of Law is set forth in the pretrial scheduling
order) shall be sent in Word format to the chambers e-mail account listed above. Proposed
Conclusions of Law must be supported by citations to authority.
5. EXHIBIT AND WITNESS LISTS
Counsel shall submit to the Court a typed list of proposed witnesses and/or exhibits (the date
for filing the proposed witnesses and/or exhibit lists is set forth in the pretrial scheduling order). All
exhibits shall be pre-labeled in accordance with the proposed exhibit list, and only numerical
sequences are permitted—alphabetical designations shall not be used. Exhibit labels must include
the case number, the exhibit number, and the party offering the exhibit. A typewritten exhibit list
setting forth the number, or letter, and description of each exhibit must be submitted prior to trial.
Any composite exhibits should be listed separately, i.e. 1A, IB, 1C, etc. The parties shall submit
said exhibit list on AO Form 187, which is available from the Clerk’s office and at
http://www.uscourts.gov/services-forms/forms. At trial, the parties shall deliver to the Court a USB
flash drive that contains digital copies of the exhibits. The parties must also comply with Local
Rule 5.3.
6. TRIAL PLAN AND STATUS CONFERENCE
At the Status Conference, the Court will require all parties to estimate the total number of
witnesses each party intends to call at trial and to estimate the total amount of time requested for
trial. The Court will also discuss with the parties whether a second mediation or a settlement
conference should be required in this case.
The parties shall file a joint trial plan no later than two (2) business days prior to Calendar
Call. By way of example, if Calendar Call falls on a Wednesday, the joint trial plan shall be filed
Page 4 of 9

Case: 9:15-cv-80102-RLR

Document #: ,128 Entered on FLSD Docket: 06/19/2019

Page 5 ot 9

no later than the preceding Monday at 11:59 p.m. Also by way of example, if Calendar Call falls on
a Wednesday and the preceding Monday is a federal holiday, the joint trial plan shall be filed no
later than the preceding Friday at 11:59 p.m. The joint trial plan shall set forth the following
information: (1) the anticipated length of time required for each party’s opening statement; (2) the
witnesses each party intends to call at trial, listed in the order in which these witnesses will be
called;2 (3) a brief description of each witness (e.g., the identity of the witness and the relationship
of the witness to any parties in the case); (4) whether the witness is an expert and, if so, the area of
expertise of the witness; (5) whether each witness will testify live, by video deposition,, or by
reading of deposition testimony; (6) the anticipated length of time required for direct examination,
cross examination, and redirect examination of each witness; (7) the anticipated length of time
required for each party’s closing argument; (8) any additional matters that may affect the course of
trial; and (9) an accurate summation of the total time allocated in the trial plan.
The Court prefers the trial plan to be submitted using the following format:
Opening Statement
(estimated time)

15 min

Opening Statement
(estimated time)

15 min

Proposed Witnesses
(in proposed sequence)
1.

Relationship to
Party(s).
Chief Operating
Officer and General
Counsel

Live/
Depo /
Video
L

Time Estimate for
Direct

15 min

Cross-

20 min

Redirect

5 min

2 If adjustments become necessary during trial, the Court will not require the parties to call their witnesses in the order
in which they are listed in the joint trial plan, as long as sufficient advance notice of the adjustments is provided to the
Court and opposing counsel. However, the Court expects very little deviation from the joint trial plan in all other
respects.

Page 5 of 9

Case: 9:15-cv-80102-RLR

Document#: 128 Entered on FLSD Docket: 06/19/2019

Page 6 of 9

Prior to filing the joint trial plan, the parties shall meet and confer regarding the matters
outlined therein. The parties shall certify in the joint trial plan that they have complied with this
requirement.
7. MOTIONS IN LIMINE
Each party is limited to filing one motion in limine that contains no more than three requests
for relief. Any party may move for a modification of this limitation at least one week in advance of
the deadline for filing motions in limine and must provide a detailed basis to support the requested
relief. Motions in limine that request for the Court to order the opposing party to comply with the
Federal Rules of Evidence are improper and may be denied immediately.
8. DEPOSITION DESIGNATIONS AND OBJECTIONS TO EXHIBITS
In the experience of this Court, only a small fraction of deposition designations are utilized
at trial. Juxtaposed to the small amount of deposition designation testimony utilized at trial is the
large amount of time and expense that deposition designations entail: the proponent must study a
deposition to designate relevant testimony, the opposing party must prepare objections to designated
testimony, the proponent must thereafter respond to the opposing party’s objections, the parties
must confer on all objections, the Court must hear argument on unresolved, contested objections,
and the Court must, in many cases, review extensive portions of deposition transcripts. The Court’s
review of .deposition transcripts is complicated by the fact that th6 Court is often without the
benefit—unlike the parties—of the context of the entire scope of evidence that will be introduced at
trial. The foregoing impacts the amount of time the parties have to prepare for the trial and the
amount of time that jurors may spend hearing evidence on a given trial day. In summary, the
foregoing affects the Court’s and the parties’ obligations under Rule 1 of the Federal Rules of Civil
Procedure. Rule 1 requires that the Federal Rules be “construed, administered, and employed by

Page 6 of 9

Case: 9:15-cv-80102-RLR

Document#: 128 Entered on FLSD Docket: 06/19/2019

Page 7 of 9

the court and the parties to secure the just, speedy, and inexpensive determination of every action
and proceeding.” In accordance with its obligations under Rule 1, the Court orders the following.
First, the parties are ordered to provide the Court with a deposition designation notebook.
This notebook must be delivered to Chambers on the same day that the parties’ jury instructions or
proposed findings and conclusions are due. Second, the notebook (or notebooks) must contain the
full deposition transcript for each designated witness. Third, the designated (or counter-designated)
testimony for each witness must be highlighted and easy to locate and identify. Fourth, objections
to the designated testimony must be supplemented with an appendix that contains detailed legal
argument explaining the objections, together with a response from the opposing party. Fifth and
finally, an objection to designated testimony may only be raised after a full, reasonable conferral
between the parties on the issue in dispute as more fully set forth below.
Deposition designation objections must be accompanied by a certification, by the party
objecting, that: (i) the parties have conferred on the objection, (ii) the objection is raised in good
faith, (iii) the objection raises an issue that the parties, working together as professionals, cannot
resolve without court intervention, and (iv) the expenditure of judicial labor is the only avenue by
which the dispute may be resolved. The Court will carefully consider all of the objections brought
to its attention. In the event the Court concludes that a designating party or counsel, or an objecting
party or counsel, has failed “to secure the just, speedy, and inexpensive determination of every
action and proceeding,” the Court may consider sanctions, as appropriate. Similarly, if the Court
concludes that objections to designations must be ruled upon contemporaneously with the reading
of designated testimony3 at trial because of a party or counsel’s failure to comply with this Order,
the Court may consider sanctions, as appropriate.

3 Such a.ruling may mean that a transcript of a video deposition must be read in lieu of presentation of the video
recording.

Page 7 of 9

Case: 9:l5-cv-80102-RLR

Document #: 128 Entered on FLSD Docket: 06/19/2019

Page 8 of 9

Finally, the requirements in the preceding paragraph apply to the parties’ objections to
exhibits. The parties are expected to fully and reasonably confer on every objection to an exhibit.
In the event the Court determines that objections to exhibits are objections that could have been
resolved through a full, reasonable, and professional conferral, the Court may consider sanctions, as
appropriate.
9. PRETRIAL STIPULATION
The Joint Pretrial Stipulation shall conform to S.D. Fla. L.R. 16.1(e). The Court will not
accept unilateral pretrial stipulations, and will strike sua sponte any such submissions. Should any
of the parties fail to cooperate in preparing the Joint Pretrial Stipulation, all parties shall file (by the
date the pretrial stipulation was due) a certification with the Court stating the circumstances. Upon
receipt of such certifications, the Court may issue an order requiring the non-cooperating party or
parties to show cause why such party or parties, or their respective attorneys, should not be
sanctioned for the failure to comply with the Court’s order. The pretrial disclosures and objections
required under Fed. R. Civ. P. 26(a)(3) should be served, but not filed with the Clerk’s Office, as
the same information is required to be attached to the parties’ Joint Pretrial Stipulation. The filing
of a motion to continue trial shall not stay the requirement for the filing of a Pretrial Stipulation.
10. COMPUTERS AND OTHER EQUIPMENT
Counsel desiring to utilize laptop computers or other electronic equipment in the courtroom
shall file a motion and submit a proposed order granting such use one week prior to the
commencement of trial. The motion and proposed order should describe with specificity (1) the
equipment, (2) the make and model of the equipment, and (3) the identity of the person who will
bring the proposed equipment. A sample order permitting electronic equipment into the courtroom
is available for viewing on the Court’s website at: http://www.flsd.uscourts.gov / content / judge-

Page 8 of 9

Case: 9:15-cv-80102-RLR

Document #: 128 Entered on FLSD Docket: 06/19/2019

Page 9 of 9

robin-l-rosenberg. Counsel shall contact the courtroom deputy at least one week prior to trial to
discuss any special equipment (video monitor, etc.) that may require special arrangements.
11. NON-COMPLIANCE WITH THIS ORDER
Intentional or repeated non-compliance with any provision of this Order may subject the
non-complying party or counsel to appropriate sanctions. It is the duty of all counsel to enforce the
timetable set forth herein in order to ensure an expeditious resolution of this cause.
12. COMMUNICATION WITH CHAMBERS
Rules

regarding

communication

with . Chambers

are

available

for

viewing

at

http://www.flsd.uscourts.gov / content / judge-robin-l-rosenberg.

DONE and ORDERED in Chambers, West Palm Beach, Florida, this 19th day of June,
2019.
/'

ROBIN L. ROSENBERG
UNITED STATES DISTRICT JUDGE
Copies to: Counsel of Record, Clerk of Court, and
Joel Barcelona
M50331
Northwest Florida Reception Center
Inmate Mail/Parcels
4455 Sam Mitchell Drive
Chipley, FL 32428
PROSE

Page 9 of 9

ftowt/ad (o IWad/son C.l.

on

feteinitiafs

RECEIVED
JUN - 9 2021
SUPREME1"CQl)RTLMRgK

APPENDIX - D

USCA11 Case: 19-14305

D@t©F1lfe)± 03/02/2021

Page: 1 of 10

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-14305
Non-Argument Calendar
D.C. Docket No. 9:15-cv-80102-RLR

JOEL BARCELONA,
Plaintiff-Appellant,
versus
SECRETARY, DEPARTMENT OF
CORRECTIONS,
WARDEN, SOUTH BAY CF,
EWOOD FNU,
Corrections Health Care,
Defendants-Appellees.

Appeal from the United States District Court
for the Southern District of Florida
(March 2, 2021)

USCA11 Case: 19-14305

D^teFllfc)d: 03/02/2021

Page: 2 of 10

Before NEWSOM, BRANCH, and ANDERSON, Circuit Judges.
PER CURIAM:
Joel Barcelona, a prisoner in the custody of the Florida Department of
Corrections (“FDOC”), appeals from the district court’s grant of summaiy
judgment against him in a 42 U.S.C. § 1983 lawsuit. Barcelona claims that prison
officials were deliberately indifferent to his serious medical needs, in violation of
the Eighth Amendment, because they refused to provide him with a hearing aid for
his right ear. The district court found that the officials were entitled to qualified
immunity because Barcelona only suffered from hearing loss in one ear and did not
have a clearly established right to a hearing aid under Gilmore v. Hodges, 738 F.3d
266 (11th Cir. 2013). Because Barcelona did not have a clearly established right to
a hearing aid, we affirm.
I.
A.

Background

Facts

Barcelona has been in the custody of the FDOC since March 21, 2005. On
June 6,2014, after he reported that he had experienced hearing loss to prison
officials, Barcelona was seen by Dr. Arthur G. Zinaman, an audiologist. Dr.
Zinaman found that Barcelona had asymmetrical hearing loss—“a profound

2

USCA11 Case: 19-14305

qfteFlltp: 03/02/2021

Page: 3 of 10

hearing loss in the right ear and only mild hearing loss in the left ear.”1 Based on
his observations, Dr. Zinaman noted that “Barcelona’s left ear would be a
candidate for a hearing aid for overall hearing due to the lack of hearing in the
right ear.” On August 12,2014, Dr. Zinaman issued a second report noting that
“[a] mild gain device for the left ear may be beneficial.... Alternatively, a power
instrument for the right ear may provide speech and environmental awareness with
possible transcranial effect.”
On August 22,2014, Dr. Raymond Herr, the Chief Medical Officer for
Corrections Healthcare Companies, reviewed Barcelona’s request for a hearing aid
for his right ear. Dr. Herr denied Barcelona’s request, finding that:
Based on the audiometry results and the adequacy of the hearing
levels in Mr. Barcelona’s left ear, he did not meet the medical criteria
guidelines for bilateral hearing loss under HSB 15.03.27(G)(2)(a)(b)[2] and therefore Mr. Barcelona was not a candidate for a hearing
aid. Additionally, based upon the audiometry results for the right ear,
and the profound hearing loss, it was not medically probable that a
power instrument device for the right ear could have remedied Mr.
Barcelona’s conditions.
On September 24, 2014, Barcelona filed a formal grievance with prison
officials, asserting that the decision not to provide him with a hearing aid was

1 “Profound” hearing loss is the most impaired level; “mild” hearing loss is the least
impaired level.
2 Health Services Bulletin No. 15.03.27 provided that a hearing aid recipient “must have
a bilateral (both ears) hearing loss. A recipient who has a unilateral (one ear) hearing loss is not
eligible for services.”
3

USCA11 Case: 19-14305

qgfteFIlfcjd: 03/02/2021

Page: 4 of 10

inadequate medical care in violation of the Eighth Amendment and requesting that
the prison provide him a hearing aid for his right ear. Dr. Jules Heller, the medical
director for the prison, prepared a response, noting that:
Records indicate you only have hearing loss in your right ear. Per
policies and procedures, in order to be eligible for services, the
recipient must have a bilateral (both ears) hearing loss. A referral was
submitted, but denied because you do not meet this criteria based on
your evaluation with the audiologist. Based on the above information
your grievance is denied.
The Warden signed off on the response and denied Barcelona’s grievance.
Barcelona submitted an administrative appeal to the Secretary of the Department of
Corrections, but the appeal was returned “without action” because it was untimely.
On November 16, 2014, Barcelona filed another formal grievance regarding the
decision, which was also denied, as was the subsequent appeal.
B.

Procedural History

On January 29, 2015, Barcelona filed a pro se complaint against the
Secretary of the Florida Department of Corrections and the Warden, alleging that
prison officials had violated his Eighth Amendment rights by denying him a
hearing aid for his right ear, which had profound hearing loss.3 Barcelona’s

3 The Eighth Amendment provides: “Excessive bail shall not be required, nor excessive
fines imposed, nor cruel and unusual punishments inflicted.” U.S. Const, amend. VIII; see
Thomas v. Bryant, 614 F.3d 1288, 1303 (11th Cir. 2010) (noting that “[t]he Eighth Amendment’s
prohibition against cruel and unusual punishment” was made applicable to the States “through
the Due Process Clause of the Fourteenth Amendment”). “In the prison context... [t]he Eighth
Amendment can give rise to claims challenging ... the deliberate indifference to a prisoner’s
serious medical needs.” Thomas, 614 F.3d at 1303-04. “To prevail on a claim of deliberate
4

USCA11 Case: 19-14305

qfteFlltyj: 03/02/2021

Page: 6 of 10

On remand, Barcelona filed an amended complaint, alleging that Herr,4 the
Secretary of the Department of Corrections, and the Warden (the “defendants”)
violated his Eighth Amendment rights, in both their individual and official
capacities, through deliberate indifference to his serious medical needs. As relief,
Barcelona sought compensatory damages against each defendant. After discoveiy,
the defendants moved for summary judgment, arguing that Barcelona failed to
show that they were deliberately indifferent to his serious medical needs, that they
were entitled to absolute immunity for the claims against them in their official
capacities, and that they were entitled to qualified immunity for the claims against
them in their individual capacities. Barcelona opposed the motion.
The district court granted the defendants’ motion for summary judgment.
As relevant to this appeal, it found that the defendants were “protected by qualified
immunity” in their individual capacities.5 First, the district court noted that
Barcelona did “not dispute that the [defendants were acting within their
discretionary authority in declining to authorize a hearing aid.” Second, the district
court determined that “the constitutional question of whether [Barcelona’s]

4 Barcelona’s complaint initially identified Herr as “FNU Ewood.” When it was
subsequently determined that Herr was “FNU Enwood,” Herr was substituted in his place.
5 The district court also found that the defendants were “absolutely immune from suits
for damages” in their official capacities due to state sovereign immunity, but we do not address
this issue because Barcelona does not challenge the district court’s grant of summary judgment
to the defendants on his official capacity claims.
6

USCA11 Case: 19-14305

D@t©F1lfe)d: 03/02/2021

Page: 7 of 10

asymmetrical hearing loss constituted a serious medical need” was not clearly
established in 2014 when Barcelona’s hearing aid request was denied. Barcelona
timely appealed.
II.

Analysis

We review the district court’s grant of summary judgment on qualified
immunity grounds de novo, “drawing all inferences and viewing all of the evidence
in a light most favorable to the nonmoving party.” Gilmore, 738 F.3d at 272. “To
establish the defense of qualified immunity, the burden is first on the defendant to
establish that the allegedly unconstitutional conduct occurred while he was acting
within the scope of his discretionary authority.”6 Estate of Cummings v.
Davenport, 906 F.3d 934, 940 (11th Cir. 2018) (quoting Harbert Int’l, Inc. v.
James, 157F.3d 1271, 1281 (11th Cir. 1998)).
Once an official has proved that he acted within the scope of his
discretionary authority, “the burden shifts to the plaintiff to satisfy the following
two-pronged inquiry: (1) whether the facts that a plaintiff has shown make out a
violation of a constitutional right; and (2) whether the right at issue was clearly
established at the time of the defendant’s alleged misconduct.” Gilmore, 738 F.3d

6 u

To establish that the challenged actions were within the scope of his discretionary
authority, a defendant must show that those actions were (1) undertaken pursuant to the
performance of his duties, and n\ wWHshht
a.
F.3d at 940 (quotin'

USCA11 Case: 19-14305

D(«t©F1lfe)d: 03/02/2021

Page: 8 of 10

at 272. We may consider the two prongs in any order. See Pearson v. Callahan,
555 U.S. 223, 236 (2009).
“A clearly established right is one that is sufficiently clear that every
reasonable official would have understood that what he is doing violates that
right.” Mullenix v. Luna, 577 U.S. 7,11 (2015) (quotation omitted). “[T]o
determine whether the right in question was clearly established at the time of the
violation,” we look to “cases from the United States Supreme Court, the Eleventh
Circuit, and the highest court of the state under which the claim arose.” Coffin v.
Brandau, 642 F.3d 999,1013 (11th Cir. 2011). Although “[w]e do not require a
case directly on point... existing precedent must have placed the statutory or
constitutional question beyond debate.” Ashcroft v. al-Kidd, 563 U.S. 731, 741
(2011). The precedent “must be ‘particularized’ to the facts of the case.” White v.
Pauly, 137 S. Ct. 548, 552 (2017). In other words, “[t]he salient question ... is
whether the state of the law gave the defendants fair warning that their alleged
conduct was unconstitutional.” Vaughan v. Cox, 343 F.3d 1323,1332 (11th Cir.
2003) (quotation omitted).
A.

Scope of the Defendants’ Discretionary Authority

Barcelona argues that the defendants were not acting within the scope of
their discretionary authority when they denied his requests for a hearing aid for his
right ear. But he failed to raise this argument below in his response to the
8

USCA11 Case: 19-14305

DpteFUfcjd: 03/02/2021

Page: 9 of 10

defendants’ motion for summary judgment and has thus forfeited the argument.7
See Hall v. Flournoy, 975 F.3d 1269, 1277 n.3 (11th Cir. 2020).
B.

Clearly Established Law

Barcelona next argues that it was clearly established by Gilmore that
asymmetrical hearing loss is a serious medical need. Although we held in Gilmore
that “significant and substantial hearing loss that can be remedied by a hearing aid
is a serious medical need,” that case involved bilateral hearing loss, not
asymmetrical hearing loss. 738 F.3d at 269,278. Barcelona does not dispute that
Gilmore can be distinguished from this case on those grounds; instead, he claims
that the difference between the two cases “is trivial at best.” We disagree.
As we previously noted in this case, the Eleventh Circuit “[has] not yet
addressed whether a prisoner’s loss of hearing in one ear, which leads a doctor to
prescribe a hearing aid, is insufficient to constitute a serious medical need where
the prisoner retains some level of hearing in his other ear.” Barcelona, 657
F. App’x at 898-99. Nevertheless, even without regard to our previous statement,

7 Even if he had not forfeited this argument, “objective circumstances ... compel the
conclusion that [the defendants’] actions were undertaken pursuant to the performance of [their]
duties and within the scope of [their] authority.” Estate of Cummings, 906 F.3d at 940 (quotation
omitted). Namely, Barcelona claims that the defendants violated his constitutional rights by
denying his requests for a hearing aid. Supervising the medical care of inmates and resolving
prison grievances are actions that are plainly within the duties and the authority of the
defendants. See, e.g., Fla. Stat. § 944.14 (“Subject to the orders, policies, and regulations
established by the department, it shall be the duty of the wardens to supervise the government,
discipline, and policy of the state correctional institutions, and to enforce all orders, rules and
regulations.”); see also Estate of Cummings, 906 F.3d at 940.
9

USCA11 Case: 19-14305

D(d© ffilfeti) 03/02/2021

Page: 10 of 10

we independently conclude that Gilmore did not give the defendants fair warning
that their alleged conduct was unconstitutional because asymmetrical hearing loss
is a substantively different impairment from bilateral hearing loss. See Gilmore,
738 F.3d at 276-77 (“Thus, for instance, if a plaintiff can ‘carry on a normal
conversation’ and hear and follow directions without the use of a hearing aid, a
court would be hard pressed to classify the plaintiffs impairment as a serious
medical need.” (quotation omitted)). Barcelona does not point to any other
precedent that would have put the defendants on notice that their failure to provide
a hearing aid to him for his asymmetrical hearing loss was unconstitutional.
Accordingly, Barcelona has failed to show that the defendants violated a clearly
established right because “existing precedent [has not] placed the ... constitutional
question beyond debate.” Ashcroft, 563 U.S. at 741. Consequently, the defendants
are entitled to qualified immunity.
III.

Conclusion

For these reasons, we affirm the district court’s grant of summaiy judgment.
AFFIRMED.

10

Case: 9:15-cv-80102-RLR

Document#: 158 Entered on FLSD Docket: 09/10/2019

Page 1 of 24

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 9:15-CV-80102-ROSENBERG/REID
JOEL BARCELONA,
Plaintiff,
v.

JULIE L. JONES, et al„
Defendants.
ORDER GRANTING DEFENDANTS’ MOTION FOR SUMMARY JUDGMENT
This matter is before the Court on Defendants Raymond Herr, MD, Julie L. Jones, and D.L.
\

Stine’s (collectively, the “Defendants”) Motion for Summary Judgment (the “Motion”).1 The
Motion is fully briefed and ripe for review.

. - *

Plaintiff Joel Barcelona brought this pro se case pursuant to 42 U.S.C. § 1983 after he was
denied a hearing aid by prison officials in 2014. See Am. Compl., DE 36. Plaintiff’s Amended
Complaint alleges that the Defendants violated Plaintiff’s Eighth Amendment right to be free from
cruel and unusual punishment through Defendants’ deliberate indifference to his serious medical
need for a hearing aid. See id.
In considering this Motion, the Court has reviewed the following briefing: Defendants filed
a Statement of Facts in support of their Motion (“SOF”). DE 146. Plaintiff responded to the
Motion. PI. Resp., DE 153. With his Response, Plaintiff also filed exhibits, including his medical

i This case was previously referred to Magistrate Judge Reid for a Report and Recommendation on all dispositive
matters. See DE 2; DE 102. The Court vacates that referral for the limited purpose of considering the Motion for
Summary Judgment, consistent with the Court’s dialogue with the parties at the Calendar Call held before the
undersigned on August 14, 2019. See DE 149.

Case: 9:15-cv-80102-RLR

Document#: 158 Entered on FLSD Docket: 09/10/2019

Page 2 of 24

records, grievances, and relevant Department of Corrections policies. See DE 153-1, 153-2.
However, Plaintiff did not respond to Defendants’ SOF, in violation of Federal Rule of Civil
Procedure 56(c) and Local Rule 56.1, despite being apprised of Rule 56’s requirements in Judge
Reid’s Order Instructing Pro Se Plaintiff to Respond, which quoted the language of Rule 56(e).
DE 115. Defendants filed a Reply in support of their Motion. See Reply, DE 154.
In light of Plaintiff’s pro se status and failure to file a responsive SOF, the Court has
carefully reviewed all of the attachments to Plaintiff’s Response at DE 153, pursuant to Federal
Rule of Civil Procedure 56(e). The Court has also reviewed Plaintiff’s filings that were submitted
in briefing the first Motion for Summary Judgment in this case, because Plaintiff’s Response to
the instant Motion references the documents he submitted with his prior Response.2 See PL Resp.,
E)E 153; see also PL 1st Resp., DE 120. Almost all of Plaintiff’s filed evidence has also been
submitted by Defendants and is cited to in Defendants’ SOF' See DE 112; Def. SOF, DE 146. The
parties’ understanding of the facts and the relevant medical records are substantially consistent, as
,

.

'

...

^

»

;

*

•

,

.

i

,

evidenced by their production, during the course of briefing two summary judgment motions, of
the same records. The exception is Plaintiff’s sworn affidavit which was filed in response to the
first summary judgment motion at DE 120 and Plaintiff’s deposition testimony. See DE 120, DE
24; PL Dep., DE 144-1. While Plaintiff’s arguments in his responses are not evidence, his sworn
affidavit and his deposition testimony are. See Sears v. Roberts, 922 F.3d 1199, 1206 (11th Cir.
2019) (finding a plaintiff’s sworn affidavit “should have been treated as testimony by the district
court”).

2 This is the second Motion for Summary Judgment briefed in this case. The first Motion resulted in a Report and
Recommendations issu'ed by Magistrate Judge Reid, which was ultimately vacated to allow for additional discovery
and rebriefmg of the motion for summary judgment. See Mot., DE 114; Report, DE 125; Order Vacating, DE 131;
Order allowing discovery and rebriefing, DE 133.

2

Case: 9:15-cv-80102-RLR

Document #: 158 Entered on FLSD Docket: 09/10/2019

Page 3 of 24

Finally, the Court held a pretrial Calendar Call with defense counsel and Plaintiff
Barcelona physically present in the courtroom on August 14, 2019. DE 149.
I.

Facts

Plaintiff has been in the custody of the Florida Department of Corrections (“FDOC”) since
March 21, 2005. Def. SOF., DE 14611. Plaintiff suffers from asymmetrical hearing loss, and he
brought this case against various prison officials after he was denied a hearing aid in 2014. See
Am. Compl., DE 35; see also 6/6/14 Letter, DE 112-1, 11 (identifying Plaintiffs hearing
impairment).
On June 6, 2014, Plaintiff was seen by Dr. Arthur G. Zinaman, an audiologist with his
doctorate in audiology and who has been in practice since 1988. Def. SOF, DE 146 ][ 3; see also
6/6/14 Report, DE 112-1, 11; Zinaman Dep., DE 139, 24. Dr. Zinaman reported that Plaintiff had
*■

i

_ ;

•

'

. ,

-

, , .

.

•

;

.

1

*

,

\

/■■■■'

1 .

r’

‘

“profound” hearing loss in the right ear and “mild” hearing loss in the left ear. See 6/6/14 Report,
DE 112-1, 11. Based on this diagnosis, Dr. Zinaman reported that “ [amplification is not
specifically recommended on the right side due to the severity of the hearing loss and poor word
discrimination exhibited. However, the left ear is a candidate for a hearing aid to improve overall
hearing due to the lack of such in the right ear.” Id, see also Def. SOF, DE 146 f 3. Accordingly,
“[u]pon medical clearance and (South Bay Correctional) facility authorization, a hearing aid for
the left ear would be beneficial.” Id\ see also Def. SOF f 3. Dr. Zinaman also recommended an
MRI to better understand the source of Plaintiffs right ear hearing loss. See id The MRI was
■

"

'/

completed at Lakeside Medical Center, and the reviewing physician concluded that the results
were “unremarkable.” MRI Report, DE 112-1, 22.
Plaintiff in his affidavit swears that “Dr. J. Heller ordered that Plaintiff transport [sic] to
Lakeside M!C. to get a mold for a hearing aid by Dr. Zinaman. The hearing aid was ordered,” PI.

3
(

i

Case: 9:15-cv-80102-RLR

Document #:. 158 Entered on FLSD Docket: 09/10/2019

Page 4 of 24

Aff., DE 120, 24. Plaintiff repeats in his November grievance that an unnamed doctor at Palm
West Hospital ordered a hearing aid mold to be made for Plaintiff and that he was transported
outside of the prison for the same. Nov. Grievance, DE 112-2, 7 (“On July 11, 2014,1 was taken
to Palm West Hospital to get an MRI. The doctor there ordered that I be scheduled to get a mold
for a ‘hearing aid.’ On August 5,2014,1 was taken to Lakeside Hospital to get a mold for a hearing
aid.”). See also PI. Dep., DE 144-1, 9, 11. Defendants do not address whether Plaintiff was
transported, for a hearing aid mold, and none of the submitted medical records from either party
supports Plaintiff’s assertion that a mold was ordered. See Def. SOF, DE 146; DE 153; DE 112.
On August. 12, 2014, Dr. Zinaman issued a second report. See 8/12/14 Report, DE 112-1,
26. The Report states that a “mild gain device for the left ear may be beneficial, but this is declined
by patient. Alternatively, a power instrument for the right ear may provide speech and
environmental awareness with possible transcranial effect. Mr. Barcelona is agreeable to.this
plan.” Id.; see also Def. SOF..; DE 146:f 5. At his deposition, Plaintiff did not recall being offered
a device for his left ear, PI. Dep.,;DE 144, ll;(“Q: Did [Dr. Zinaman] offer you a device .for your
left ear? A: No. Q: Was there any discussion regarding your left ear? A: No.”).3
On August 18, 2014, there is a notation in Plaintiff’s Chronological Record of Health Care .
(the “Health Record”), by Dr. J. Heller (South Bay’s Medical Director), which appears to indicate
“Await [illegible] status of hearing aid approval.” 8/18/14 Health Record Note, DE 112-1, 25. By
August 22,2014, the. Health Record indicates that “Audiology referral deferred by UM [Utilization
Management]. Due to. adequate hearing in one ear, not a candidate for hearing aid.” Id. See also
Def. SOF, DE 14616. The same was indicated in October 2014: See 10/2/14 Health Record Note,

3 In addition, in his unsworn responses, Plaintiff contests whether he was seen a second time by Dr. Zinaman after his
MRI was completed. See PI. Resp., DE 153, 3. See also Zinaman Dep., DE 139, 27. Plaintiff further denies that he
ever declined the left ear gain device suggested by Dr. Zinaman. See PI. Resp., DE 154, 9.

4

Case: 9:l5-cv-80102-RLR

Document#: 158 Entered on FLSD Docket: 09/10/2019

Page 6 of 24

grievance,Dr. Heller and Warden Stine signed a response stating, “Records indicate you only have
hearing loss in your right ear, per policies and procedures, in order to be eligible for services, the’
recipient must have a bilateral (both ears) hearing loss. A referral was submitted but denied because
you do not meet this criteria.” Id. at 3. Plaintiffs October, November, and December grievances
repeated the arguments he raised in his September grievance. See id. at 4-6,7-8,10-12. In response
to the November grievance, Dr. Heller and a different warden signed a response stating:
Records indicate you were seen by audiologist on 8/12/14 and it was determined
your hearing loss in the right ear. [sic] A referral request for hearing aid was ordered
on 8/19/14. The referral was submitted to the Utilization Department for a decision
and the consult was deferred by utilization management. Per Florida Department of
Corrections Guidelines a recipient for hearing aids must have a bilateral (both ears)
.hearing loss. A person who has unilateral (one ear) hearing loss is not eligible for
services. Based on the above information, your grievance is denied.
Id. at 9.

* *
a

? ■

•t

Plaintiff then initiated this § 1983 actionin January of 2015. Cd'mpl., DE 1.
In'November 2018, while ■this hction .was'Still ipb.hding^'Plaintiff was fitted fora hearing aid v
for his left ear by Ariana Wascher, a licensed hSariipg aid specialist. .Def. SGF,DE 146 142/46. .
Although his hearing in both ears had remained stable.in the intervening years, the Health Services
Guidelines had changed as of November 1, 2018, so that Plaintiff qualified for a left ear hearing
aid. See id. If 47-51. See also Wascher Dep., DE 139, 8 (characterizing both-ears’ hearing loss as
“stable”, between 2014 and 2018 tests in spite of “very slight” or'“slight” changes in the left- ear). Contra PI. Dep., DE 144, 14 (“Q: Was your hearing different in 2018 when you saw Dr. Arian?
A: Yes, it’s different. ... I had a hard time hearing about it. Q: It had gotten worse over the last
four years? A: Yes, yes, That’s why I said it’s almost damaged, so— Q: Is it worse than it was in ■
2016 when you were transferred? A: Yes.”).

,\

6

. r.

f:

Case: 9:15-cv-80102-RLR

Document #:• 158 Entered on FLSD Docket: 09/10/2019

Page 5 of 24

DE 112-1, 29 (“UM denied based on [Health Services Bulletin] 15.03.27. Must have bilateral
hearing loss.”).
Health Services Bulletin No. 15.03.27' was issued on April 9, 2014 for the purpose of
establishing “uniform procedures for the provision of auditory care to inmates.” Bulletin, DE 1123, 1-3. The Bulletin specifies that “A recipient [of a hearing aid] who has a unilateral (one ear)
hearing loss is not eligible for services. Exceptions to this policy may be granted on a case-by-case
basis as recommended by an otolaryngologist or otologist, with approval of the regional medical
director.” Id. See also Def. SOF, DE 146 ][ 8.
On August 22, 2014, “Dr. Herr, the Chief Medical Officer for Correction Healthcare
Companies in Utilization Management, reviewed the request for hearing aid along with the June
2, 2014 audiometry results.” Def. SOF, DE 146 f 6. According to Dr. Herr, “[b]ased on. the
audiometry results and the adequacy of the hearing level in Mr. Barcelona’s left ear, he did not
meet the:medical criteria;guidelines for bilateral:hearing loss under [Health Services Bulletin]
: 15.03.27(G)(2)(a)-(b) and therefore Mr. Barcelona was not a candidate for a hearing aid.
Additionally, based upon the audiometry results for the right ear, and the profound hearing loss, it
was not medically probable that a power instrument device for the right ear could have remedied
Mr. Barcelona’s condition. Based on the foregoing, I deferred further audiology consultation and
did not authorize a hearing aid for Mr. Barcelona at that time.” Herr Aff., DE 145-1.][ 15; see also
Def. SOF ff 11-14.
Plaintiff formally grieved this determination on September 24, 2014; October 21, 2014;
-November 16, 2014; and December 8, 2014. DE 112-2. In his September grievance, Plaintiff
claims that his “condition could have easily been treated with a hearing aid. A hearing aid was
ordered by not one but two separate doctors.” Id. at 1-2. In response to Plaintiff’s September

5

Case: 9:15-cv-80102-RLR

Document#: 158 Entered on FLSD Docket: 09/10/2019

Page 7 of 24

. In her deposition, Ms. Wascher stated that Plaintiff’s hearing in the left ear improved with
the hearing aid. See id. at 14 (“[U]pon fitting it and testing it and programming it I determined that
it was a good fit for his ear and that he was. hearing speech crisp and clear, hearing better.”).
However, even with his hearing aid, Plaintiff states that as of August of 2019, he “cannot hear
T.V., loud speaker, mail calls, meal calls, or [if] somebody is calling behind me where the voice
came from.” PI. Resp., DE 153, 13. He states that the left ear hearing aid “is only for face to face,
close and quite [sic] room.” Id.
II.

Summary Judgment Standard

Under Rule 56, the summary judgment movant must demonstrate that “there is no genuine
issue of material fact and that the moving party is entitled to summary judgment as a matter of
law/’ Fed. R. Civ. P.,56(c). The moving party bears the initial burden of demonstrating the absence
of a genuine dispute of material fact. Ctlotex Corp. v.Catrett, 477' U.S. 317, 323:(1986). Summary
judgment is proper “if the pleadings, depositions, answers to Interrogatories, and,-admissions on
file, together with the affidavits, if any, show:that-there is no-genuine issue as to any material.fact
and that the moving party is entitled to judgment as a matter of law.” Grayson v. Warden, Comm ’r,
Ala. Dep’t ofCorr., 869 F.3d 1204, 1220 (11th Cir. 2017) (quoting Celotex, All U.S. at 322)..The
existence of a. factual dispute is not by itself sufficient grounds to defeat a motion for summary
judgment; rather, “the requirement is that there be no genuine issue of material fact.” Anderson v.
Liberty Lobby, Inc., All U.S. 242, 247-48 (1986). A dispute is genuine if “a reasonable trier of
fact could return judgment for the non-moving party.” Miccosukee Tribe of Indians of Fla. v.
United States,.516 F.3d 1235, 1243 (11th Cir. 2008) (citing Anderson, All U.S..at 247-48). A
fact is material if “it would affect the outcome of the suit under the governing law.” Id. (citing
Anderson, All' U.S. at 247—48). r

7

Case: 9:15-cv-80102-RLR

Document#: 158 Entered on FLSD Docket: 09/10/2019

Page 8 of 24

In deciding a summary judgment motion, the Court views the facts in the light most
favorable to the non-moving party and draws all reasonable inferences in that party’s favor. See
Davis v. Williams, 451 F.3d 759, 763 (11th Cir. 2006). The Court does not weigh conflicting
evidence. See Shop v. City of Atlanta, 485 F.3d 1130, 1140 (11th Cir. 2007). Thus, upon
discovering a genuine dispute of material fact, the Court must deny summary judgment. See id.
The moving party bears the initial burden of showing the .absence of a genuine dispute of
material fact. See Shiver v. Chertoff, 549 F.3d 1342, 1343 (11th Cir. 2008). However, once the
moving party satisfies this burden, “the nonmoving party ‘must .do more, than simply show that
there is some.metaphysical doubt as to the material facts.’” Ray v. Equifax Info. Servs., EEC,
327 F. App’x 819, 825 (11th Cir. 2009) (quoting Matsushita Elec. Indus. Co., Ltd. v. Zenith Radio
Corp., 475 U.S. 574, 586 (1986)). Instead, “[t]he non-moving party must make a sufficient
showing on each essential element of the case for which he has the burden of proof.” Id. (citing
Celotex, 477.U,‘S. at 322). Accordingly, the nonrrrioying party must produce evidence, going
beyond the pleadings,:to show that a reasonable jury could find in favor of that party. See Shiver,
549F.3dat 1343.
III.

.

Plaintiff’s Eighth Amendment Claim

.“The Eighth Amendment’s prohibition against cruel and unusual punishment, applicable
to the State of Florida through the Due Process- Clause of the Fourteenth Amendment, prohibits
the^.‘unnecessary and wanton infliction of pain.’” Thomas v. Bryant, 614 F.3d 1288, 1303 (11th
Cir. 2010) (citing Robinson v. California, 370 U.S. 660 (1962); quoting Hudson v. McMillian, 503
U.S. 1, 5 (1992). In the prison context, the “Eighth Amendment can give rise to claims challenging
the specific conditions of confinement, excessive, use of force, and the deliberate indifference to a
prisoner’s serious medical needs.”/d. at 1303-04.

8

Case: 9:15-cv-80102-RLR

Document#: 158 Entered on FLSD Docket: 09/10/2019

Page 9 of 24

“To prevail on a claim of deliberate indifference to [a] serious medical need in violation
of the Fourteenth Amendment, a plaintiff must show: ‘(1) a serious medical need; (2) the
defendants] deliberate indifference to that need; and (3) causation between that indifference and
the plaintiffs injury.” Youmans v. Gagnon, 626 F.3d 557, 563 (11th Cir. 2010) (quoting Mann v.
Taserlnt’l, Inc., 588 F.3d 1291, 1306-07 (11th Cir. 2009)).
This analysis contains both an objective and a subjective component. A plaintiff
must first show an objectively serious medical need that, if unattended, posed a
substantial risk of serious harm, and that the official’s response to that need was
objectively insufficient. Second, the plaintiff must establish that the official acted
with deliberate indifference, i.e., the official subjectively knew of and disregarded
'the risk of serious harm, and acted with more than mere negligence.
Gilmore v. Hodges, 738 F.3d 266, 274 (11th Cir. 2013) (citing Thomas, 614 F.3d at 1304 (11th
Cir. 2010); Taylor v. Adams, 221 F.3d 1254, 1258 (11th Cir.2000)).
A. Serious Medical Need
“A serious medical :need is; ‘one that has'been diagnosexf by ‘a1 physician a'S mandating
treatment or one that is So dbvibuSthat eN/cmiMyperson WouM'b&Srly recognize die necessity for
a doctor's attention.” Youmans vl Gagnoh; 626 !F.3d 557,' 564 (kith Cir. 2010) (emphasis'added)
(citations omitted). “Medical treatment violates the Eighth Amendment only when it is so grossly
incompetent, inadequate, or excessive as to Shock the conscience or to be intolerable to
fundamental fairness.” Hernandez v. Sec'y Fla. Dep’t of Corn, 611 F. App’x 582; 584 (11th Cir.
2015) (citing Estelle v. Gamble, 429 U.S/97, 108 (1976)). “[N]either a' difference in medical
opinion between the inmate and the care provider, nor the exercise of medical judgment by the
care provider, constitutes deliberate indifference.” Id.
In Gilmore v. Hodges, the Eleventh Circuit considered for the first time “whether a
substantial hearing impairment that can be remedied by a hearing aid may amount to a serious
medical need for purposes of the Eighth or Fourteenth Amendments.” 738 F.3d 266, 273 (11th
9

Case: 9:15-cv-80102-RLR

Document#: 158 Entered on FLSD Docket: 09/10/2019

Page 10 of 24

Cir. 2013). Prior to Gilmore, there was “precious little case law addressing an official’s failure to
supply a severely hearing impaired inmate with hearing aids.” Id. at 275. The Gilmore court
concluded that “[Substantial hearing loss that can be remedied by a hearing aid can present an
objectively serious medical need.” Id. at 276. The court emphasized two elements for a deliberate
indifference claim based on an official’s failure to provide hearing aids: First, the prisoner must
suffer from significant, substantial or severe hearing loss and (2) the hearing loss must be able to
be remedied by a hearing aid. Id. at 274 (“whether severe, treatable hearing loss amounts to an
objectively serious medical need”); 276 (“Substantial hearing loss that can be remedied”); 277
(“not all hearing loss that amounts to a serious medical condition can be remedied'). Importantly,
the Gilmore court “caution[ed] ... that not all hearing loss amounts to a serious medical condition.”
Id. at 276. And, “not all hearing loss that amounts to a serious medical condition can be remedied
with a hearing aid, and thus an official could hardly be faulted for failing to provide an inmate with
a hearing aid in that circumstance.” Id. at 277.
Here, the record makes clear that Plaintiff suffers from severe hearing loss in his right ear.
Every medical professional who has examined Plaintiff determined that Plaintiff’s right ear had
“profound” hearing loss, the most extreme classification of hearing loss. See, e.g., 6/6/14 Report,
DE 112-1, 11; 6/25/14 Health Record, DE 112-1, 16; 11/26/18 Consultation Report, DE 144-3.
See also Zinaman Dep., DE 139, 25 (“The profession recognizes different levels of hearing loss
going from normal, mild, moderate, severe and profound. Profound is the worst hearing loss
scenario.”). Haintiff does not refute this evidence. See PL Dep., DE 144-12 (“I lost my hearing in
my right ear in 2014.”). However, it is not clear from the record that a hearing aid, or any other
device, could have remedied Plaintiff’s right ear hearing-loss. In June of 2014, Dr. Zinaman
reported that“[A']iriplificatiori is nor specifically recommended on the right side due to the severity

10

Case: 9:15-cv-80102-RLR

Document #: 158 Entered on FLSD Docket: 09/10/2019,

Page 11, of 24

of the hearing loss and poor word discrimination exhibited.” 6/6/14 Report, DE 112-1, 11
(emphasis added). In August of 2014, Dr. Zinaman stated that “a power instrument for the right
ear may provide speech and environmental awareness with possible transcranial effect.” See
8/12/14 Report, DE 112-1, 26. Dr. Zinaman made, this recommendation after, he understood4
Plaintiff to have declined a hearing aid for his left ear. See 8/12/14 Report, DE 112-1, 26. In his
sworn affidavit, Dr. Herr stated that “based upon the audiometry results for the right ear, and the
profound hearing loss, it was not medically probable that a power instrument device for the right
•

’•

'

V

ear could have remedied Mr. Barcelona’s condition.” Herr Aff., DE 145-1 ^ 15. Plaintiff has not
refuted Dr. Herr’s medical opinion.
As to Plaintiff’s left ear hearing loss, the record is undisputed that Plaintiff’s hearing loss
was “mild.” See 6/6/14 Report, DE 112-1, 11 (“mild in left ear”); see also PI. Dep., DE 144, 13
(“Q: Have you ever had a complete hearing loss in both ears? A: No.”). This remained true in
2018. See Wascher Dep., DE 139, 7-8. Based on the undisputed record evidence from Plaintiff’s
medical providers, Plaintiff’s left ear hearing loss fails the test articulated in Gilmore because his
left ear hearing loss was only mild, which by definition, is not severe, substantial, or. significant.
Nevertheless, when considering Plaintiff’s overall hearing capacity, the Court’s analysis of
the plaintiff’s hearing loss under the Gilbert framework changes. With regard to the magnitude of
his hearing loss, the medical records and Plaintiff’s subjective experiences are consistent with a
finding of substantial hearing loss. See, e.g., PI. Dep., DE 144-1, 7. See also PI. Resp., DE 153, 13
(“I cannot hear T.V., loud speaker, mail calls, meal calls, or somebody is calling behind me where

4 In his Response, which is not'a sworn statement, Plaintiff disputes that he declined the left ear hearing aid. PI. Respv
DE 153, 20. In his sworn deposition testimony, Plaintiff could not remember whether Dr. Zinaman made the
recommendation for a mild g^in device for his left ear. PL Dep.,, DE. 144-1, 11 ,,Even if plaintiff did not decline the
left ear hearing aid in August of 2014, this dispute is immaterial to the Court’s conclusion that the Defendants did not
act with deliberate indifference. See infra Section III.B.

11

Case: 9:15-cv-80102-RLR

Document #: 158 Entered on FLSD Docket: 09/10/2019

Page 12 of 24

the voice came from.”); Am. CompL, DE 36, 5 (same). Plaintiff identifies verbatim the kind of
hearing difficulties that the Gilmore court recognized as potentially leading to serious harm to
physical and mental health. Cf Gilmore, 738 F.3d at 275-76 (describing that the plaintiff was
unable to hear the TV and “could have had trouble hearing a fire or other alarm, , responding to
commands issued by guards, and reacting to a fight behind him or to prisoners threatening his
safety.”). The Court finds that due to the total loss of hearing in his right ear, coupled with even
mild hearing loss in his left ear, a reasonable jury could conclude that Plaintiff has severe,
substantial, or significant hearing loss.
However, it is less clear whether or not Plaintiffs overall hearing loss could be remedied
by hearing aids. In 2014, Dr. Zinaman suggested various devices that might be able to help him.
•:

■

'

' f |

See 6/6/14 Report, DE 112-1, 11 (“[T]he left ear is a candidate for a hearing aid to improve overall
hearing due to the lack of such in the right ear.”); 8/12/14 Report, DE 112-1, 26 (“A mild gain
device for the left ear may be beneficial, but this is declined by the patient. Alternatively, a power
instrument for the right ear may provide speech and environmental awareness.”) (emphasis added).
See also Herr Aff., DE 145-1 f 15 (“Additionally, based upon the audiometry results for the right
ear, and the profound hearing loss, it was not medically probable that a power instrument device
for the right ear could have remedied Mr. Barcelona’s condition.”).5 Considering this evidence in
the light most favorable to Plaintiff, the Court finds that there is a genuine issue of fact regarding
whether any kind of hearing assistance device could have remedied his substantial hearing loss in

5 The Court notes that although Plaintiff’s claim must be analyzed based on the facts known at the time he was denied
a hearing aid in 2014, Plaintiff struggled with the same hearing problems in 2018 after he had been given a hearing
aid for his left ear as he had before he received his left ear hearing aid. See PI. Resp., DE 153 (“The hearing aid on my
left ear is only for face to face, close and quite [sic] room. At present, I cannot hear T.V., loud speaker, mail calls,
meal calls, or somebody is calling behind me where the voice came from.”).

12

:

Case: 9:15-cv-80102-RLR

Document#: 158 Entered on FLSD Docket: 09/10/2019.

Page 13 of 24

2014. Based on the doctors’ suggestions of a hearing aid or power instrument, a reasonable jury
could conclude that Plaintiffs hearing loss could be remedied with one of these devices.
B. Deliberate Indifference
“To establish deliberate indifference, [a plaintiff] must prove (1) subjective knowledge of
a risk of serious harm; and (2) disregard of that risk (3) by conduct that is more than mere
negligence.” Nam Dang by & through Vina Dang v. Sheriff, Seminole Cty. Fla., 871 F.3d 1272,
1280 (11th Cir. 2017) (citing McElligott v. Foley, 182 F.3d 1248, 1255 (11th Cir. 1999)).
“Deliberate indifference must be more than an inadvertent failure to provide adequate medical
care, negligence in diagnosis or treatment, or medical malpractice.” Sifford v. Ford, 701 F. App’x
794, 795 (11th Cir. 2017). “[A] ‘simple difference in medical opinion’ does not constitute,
deliberate indifference.” Ciccone v. Sapp, 238 F. App’x 487, 489 (11th Cir. 2007) (quoting.
Waldrop v. Evans, 871 F.2d 1030, 1033 (,11 th Cir. 1989)). “[N] either a difference in medical
opinion between the inmate and the care provider, nor the exercise of medical judgment, by the
care provider, constitutes deliberate indifference.” Hernandez v. Sec’y Fla. Dep't of Corr., 611 F.
App’x 582, 584 (11th Cir. 2015). See also West v. Higgins., 346 F. App’x 423,427,(11th Cir. 2009)
(“[Plaintiff’s] claims rest on a difference of opinion regarding the care that he needed and received,
and the evidence does not establish deliberate indifference to a serious medical need.”).
Importantly, “[m]edical treatment violates the [E]ighth [A]mendment only when it is ‘so grossly
incompetent, inadequate, or excessive as to shock the conscience or to be intolerable to
fundamental fairness.’” Harris v. Thigpen, 941 F.2d 1495, 1505 (11th Cir. 1991) (quoting Rogers
v. Evans, 792 F.2d 1052,1058 (11th Cir. 1986). Thus, “[w]hether governmental actors should have
employed ‘additional diagnostic techniques or forms of treatment’ is a ‘classic example of a matter
for medical judgment’ and, therefore, is not an appropriate basis for ..liability, under, the Eighth
•. •!

13

Case: 9:15-cv-80102-RLR

Document#: 158 Entered on FLSD Docket: 09/10/2019

Page 14 of 24

Amendment.” Sijford, 701 F. App’x at 796 (citing Estelle v. Gamble, 429 U.S. 97, 107 (1976)).
See also Hamm v. DeKalb Cty., 11A F.2d 1567, 1575 (11th Cir. 1985) (citing Westlake v. Lucas,
537 F.2d 857, 860 n.5 (1st Cir. 1981) (“Where a prisoner has received ... medical attention and the
dispute is over the adequacy of the treatment, federal courts are generally reluctant to second guess
medical judgments and to constitutionalize claims that sound in tort law.”)).
Here, Plaintiff has sued three prison officials: Dr. Raymond Herr, the Utilization
Management director who denied Plaintiffs request for a hearing aid; D.L. Stine, the prison
warden; and Julie Jones, the Secretary of the Florida Department of Corrections. See Am. Compl.,
DE 36; see also Order, DE 141 (“Therefore, the operative Amended Complaint is amended by
interlineation to identify Dr. Raymond Herr, as the individual in Utilization Management who
denied authorization for the Plaintiffs hearing aid.”).
1. Dr. Herr
As the Chief Medical Officer for Corrections Healthcare Companies in Utilization
Management, Dr. Heir “reviewed the request for hearing aid” with Plaintiffs 2014 audiometry
results. Def. SOF, DE 146 1 6. Throughout this litigation, Plaintiff has maintained that a “non
.

*. •

•.

medical officer” denied his request for a hearing aid. See, e.g., Am. Compl., DE 36. And, the Court
and the parties struggled to identify exactly who that individual was. See, e.g., DE 47, DE 48, DE
76, DE 77, DE 109, DE 117. However, after many inquiries, defense counsel identified the
individual as Dr. Raymond Herr, M.D., CCHP. Notice, DE 140. As a result, Plaintiffs Amended
Complaint was amended by interlineation to include Dr. Herr. Order, DE 141. Plaintiff did not
object to this procedure.
Once Dr. Herr was identified as the individual official who denied Plaintiffs hearing aid
request, Dr. Herr provided an affidavit regarding that decision. “Based on the audiometry results

14

Case: 9:15-cv-80102-RLR

Document#: 158 Entered on FLSD Docket: 09/10/2019

Page 15 of 24

and the adequacy of the hearing levels in Barcelona’s left ear, he did not meet th& medical criteria
guidelines for bilateral hearing loss... and therefore Barcelona was not a candidate for a hearing
aid. It was not medically probable that a power instrument for the right ear could have remedied
Barcelona’s condition.” Def. SOF, DE 146, ^11 (emphasis added); see also Herr Aff., DE 145-1.
Plaintiff has not refuted this evidence. In his Response, he continues to refer to his sworn affidavit
at DE 120, which assumed, based on the information available to him at the time, that a “non­
medical official” denied his hearing aid request. In his Response, Plaintiff repeats that he was told
that Dr. Herr “refused to authorize payment for hearing aid because the plaintiff could hear from
one ear.” Resp., DE 153, 25. Indeed, Plaintiff appears plainly aware that the hearing aid request
was denied because he had sufficient hearing in his left ear. See PL Aff., DE 120, 24. Plaintiff’s
insistence that Dr. Herr was deliberately indifferent to his need for a hearing aid amounts to a
disagreement in Dr. Herr’s medical judgment, which is not sufficient for a deliberate indifference
•V > •

claim. Cf Sijford, 701 F. App’x at 796; Waldrop, 871 F.2d at 1033.
■ • . .

■

or:

:

Here, it is not disputed that Dr. Herr denied Plaintiff’s hearing aid request, and that he did
so based on Plaintiff’s ability to hear in his.left ear and his medical opinion that “it was not
medically probable that a power instrument device for the right ear could have remedied”
Plaintiff’s condition. See Herr Aff., DE 145-1, 4. This decision does not amount to deliberate
indifference by Dr. Herr, nor was it “so grossly incompetent, inadequate, or excessive as to shock
the conscience.” Harris v. Thigpen, 941 F.2d at 1505. And, Plaintiff’s disagreement with Dr.
.

, .f •

• '

. • i

e* ,

•

’

'

.

.

-

Herr’s medical judgment is insufficient to create a genuine issue of material fact as to whether Dr.
Herr was deliberately indifferent to his medical condition. To the contrary, the record is clear that
Dr. Herr concluded that, in his medical judgment, a hearing aid was not appropriate or necessary
for Plaintiff. See Def. SOF, DE 146, f 11-15; see also Herr Aff., DE 145-1.

!

15

J

Case: 9:15-cv-80102-RLR '

Document #: 158 Entered on FLSD Docket: 09/10/2019

Page 16 of 24

Furthermore, to the extent Dr. Heller may have disagreed with Dr. Herr’s denial of the
hearing aid, see Def. SOF, DE 146

17, such a disagreement between doctors does not provide

evidence of deliberate indifference to a serious medical need. See Whitehead v. Burnside, 403 F.
App’x 401, 403-404 (11th Cir. 2010) (affirming summary judgment in favor of prison officials
where plaintiffs physician disagreed with prison medical staff regarding appropriate treatment:
“[plaintiff] has established, at best, a difference of medical opinion as to the appropriate treatment
for his injured knee. His personal belief regarding the severity of his injury is not sufficient to
f

-

,

,

overcome the medical opinions of [prison medical officials].”); see also Waldrop, 871 F.2d at
1033.
Accordingly, Dr. Herr is entitled to summary judgment, because Defendants have shown
that there is no genuine dispute of material fact that Dr. Herr denied Plaintiffs hearing aid request
based on his medical judgment, which- is insufficient to support Plaintiffs claim for deliberate
indifference.
2. Warden Stine and Secretary Jones ,,

.

Plaintiff has also sued Warden Stine and Secretary Jones for deliberate indifference to his
serious medical need. Warden Stine was only involved in Plaintiffs medical treatment to the extent
that he signed off on Dr. Heller’s October 2014 response to.Plaintiff s grievance. See Def. SOF,
DE 146

22-24; October Resp., DE 112-2, 3. Similarly, Secretary Jones was only involved in

Plaintiff’s treatment to the extent that her,representative responded to Plaintiff’s grievances. See
Def. SOF, DE 146,. TR 24-31. In this circumstance, where the Warden and Secretary are “not []
medical professional[s], nor [] directly involved.in [plaintiff’s] medical care,” the plaintiff “must
establish that [the defendants were] responsible for his constitutional deprivation in a supervisory
capacity.” Sealey v. Pastrana, 399, F. App’x 548, 552 (11th Cir. 2010)

16

-

Case: 9:15-cv-80102-RLR

Document #: 158 Entered on FLSD Docket: 09/10/2019

Page 17 of 24

“[Supervisors can be held liable for subordinates’ constitutional violations on the basis of
supervisory liability under” Section 1983. Mathews v. Crosby, 480 F.3d 1265, 1270 (11th Cir.
2007). “Supervisory liability under § 1983 occurs ‘when the supervisor personally participates in
the alleged constitutional violation or when there is a causal connection between the actions of the
supervising official and the alleged constitutional deprivation.’” Id. (quoting Cottone v. Jenne, 326
F.3d 1352, 1360 (11th Cir.2003)).
A causal connection may be established when: l)„a “history of widespread abuse”
puts the responsible supervisor on notice of the need to correct the alleged
deprivation, and he or she fails to do so; 2) a supervisor’s custom or policy results
in deliberate indifference to constitutional rights; or 3) facts support an inference
that the supervisor directed subordinates to act unlawfully or knew that
subordinates would act unlawfully and failed to stop them from doing so.
Id.
Nonetheless, “supervisory officials are erttitled to rely On medical judgments made by
medical professionals responsible for prisoner care.”"Williams v. Limestone Cfy., Ala., 198 F:
App’x 893, 897 (11th Cir. 2006) (citing Durmer v. O’Carroll, 991 F.2d 64, 69 (3d Cir. 1993);
White v. Farrier, 849 F.2d 322, 327 (8th Cir. 1988)).
Here, thefe are no allegations of widespread abuse that would put Warden Stine or
Secretary Jones on notice of the need to correct'the deprivation of hearing aids, and the facts do
not support an inference that they directed subordinates to adt unlawfully. The record is clear that
Plaintiff was denied a hearing aid based on Dr/Herr’s medical judgment and on the Health Services
bulletin in effect in 2014, which made Plaintiff ineligible for a hearing aid. Indeed, Plaintiff has
not disputed that the only reason a hearing aid was not authorized was because of the policy - he
repeats throughout his pleadings, responses, sworn affidavit, a'nd deposition that he was ddnied a
hearing aid because “one ear is good enough to hear” based on the Health Services bulletin. See,
e.g. , PI. Dep., DE 144,12 (“Q: It wasn’t that folks weren’t going to biiy'yoil a hearing aid because
17

Case: 9:15-cv-80102-RLR

Document #: 158 Entered on FL.SD Docket: 09/10/2019

Page 18 of 24

of some kind of discipline issue or some kind of retaliation? A: No. The only reason that they
refused to pay for that is because what they are saying is one ear is enough to hear. That’s what
they are saying.”).
As non-medical supervisors, both Warden Stine and Secretary Jones were entitled to rely
on Dr. Herr’s medical judgment. Accordingly, they are entitled to summary judgment, because
Defendants have shown that there is no genuine dispute of material fact that they were not
deliberately indifferent to Plaintiff’s serious medical need.
IV.

Defendants’ Immunity

Alternatively, even if Defendants were deliberately indifferent to Plaintiff’s serious
medical need, the Court finds that ail three Defendants are immune from suit.
A. Official Capacity Claims
Defendants argue that to the extent Plaintiff attempted to sue the three defendants in their
official capacities as prison officials, they are immune from suit pursuant to the Eleventh
Amendment to the Constitution. See Def. Mot., DE 147, 21.
Plaintiff’s Amended Complaint alleges that he is suing Defendants in their “official
capacity.” See Am. Compl., DE 36,4,14. Plaintiff seeks monetary damages for relief against these
Defendants. Id. at 6.
The Eleventh Amendment absolutely bars suits for damages against state actors. See, e.g.,
Gamble v. Florida Dep’t of Health & Rehab. Servs., 779 F.2d 1509, 1511 (11th Cir. 1986). Here,
there is no dispute that the Florida Department of Correction, and its employees, are state actors.
Accordingly, Defendants are entitled to sovereign immunity for monetary damages that Plaintiff
seeks from Defendants in their official capacity.

18

Case: 9:15-cv-80102-RLR

Document #: 158 Entered on.FLSD Docket: 09/10/20.19

Page 19 of 24

B. Individual Capacity Claims
To the extent the Amended Complaint seeks monetary damages against Defendants in their
individual capacities, “qualified immunity shields government officials from individual-capacity
suits for actions taken while performing a discretionary function so long as their conduct does not
violate a ‘clearly established’ constitutional right.” Montanez v. Carvajal, 889 F.3d 1202, 1207
(11th Cir. 2018). This shield allows officials to carry out their discretionary duties without the
fear of personal liability or harassing litigation. Manners v. Cannella, 891 F.3d 959, 967 (11th
Cir. 2018). Qualified immunity protects from suit “all but the plainly incompetent or one who is
knowingly violating the federal law.” Lee v. Ferraro, 284 F.3d 1188, 1194 (11th Cir. 2002)
(quotation marks omitted). The applicability of qualified immunity presents a question of law for
a court to decide. Sims v. Metro. Dade Cty., 972 F.2d 1230, 1234 (11th Cir. 1992).
To be entitled to qualified immunity, an officer must establish that he was acting, within his
discretionary authority during the incident. Manners, 891 F.3d at.967. The officer proves that he
acted within his discretionary authority “by,showing objective, circumstances which would compel
the conclusion that his actions were undertaken pursuant to the performance of his duties and
within the scope of his authority.” Roberts v. Spielman, 643 F.3d 899, 903 (11th Cir. 2011)
(quotation marks omitted). Here, Plaintiff does not dispute that the Defendants were acting within
their discretionary authority in declining to authorize a hearing aid.
If an officer establishes that he was acting within his discretionary authority, the burden
shifts to the plaintiff to show that the officer violated a constitutional right, and that the
constitutional right was clearly established at the time of the alleged deprivation of the right.
Montanez, 889 F.3d at 1207.

19

Case: 9:15-cv-80102-RLR

Document #: 158 Entered on FLSD Docket: 09/10/2019

Page 20 of 24

The Eleventh Circuit employs two methods for determining whether a reasonable officer
would know that his conduct is unconstitutional. Id. at 1291. First, a right is clearly established
if, under the relevant caselaw at the time of the violation, “a concrete factual context exists so as
to make it obvious to a reasonable government actor that his actions violate federal law.” Id.
(quotation marks omitted). Relevant caselaw is limited to the case law Supreme Court of the
United States, published case law by the Eleventh Circuit Court of Appeals, and the highest court
of the state under which the claim arose. Coffin v. Brandau, 642 F.3d 999, 1013 (11th Cir. 2011).
Alternatively, the Court may examine the officer’s conduct to determine “whether that conduct
lies so obviously at the very core of what the [Constitution] prohibits that the unlawfulness of the
conduct was readily apparent to the officer, notwithstanding the lack of fact-specific case law.”
Fils, 647 F.3d at 1291 (quotation marks omitted). This second method, known as obvious clarity'
is a narrow exception to the general rule that only caselaw and specific factual scenarios can clearly
establish a constitutional violation. ld.\ see also Coffin, 642 F.3d at 1015 (stating that obvious
.

• 1 •

■

-

.

clarity cases are rare).
Clearly established law “should not be defined at a high level of generality” and “must be
particularized to the facts of the case.” White v. Pauly, 137 S. Ct. 548, 552 (2017) (quotation
marks omitted). . Although there need not be a case directly on point for a right to be clearly
established, “existing precedent must, have placed the statutory or constitutional question beyond
debate.” Id. at 551 (quotation marks omitted). While “general statements of the law are not
inherently incapable of giving fair and clear warning to officers,” the unlawfulness must be
apparent in the light of pre-existing law. Id. at 552 (quotation marks omitted); see also Vaughan
v. Cox, 343 F.3d 1323, 1332 (11th.Cir. 2003) (stating that the “salient question ... is whether the
state of the law gave the defendants fair warning that their alleged conduct was unconstitutional”)

20

Case: 9:15-cv-80102-RLR . Document #: 158 Entered on FLSD Docket: 09/10/2019

Page 21 of 24

(quotation marks omitted)). “[I]f case law, in factual terms, has not staked out a bright line,
qualified immunity almost always protects the defendant.” Oliver v. Fiorino, 586 F.3d 898, 907
(11th Cir. 2009). The Eleventh Circuit “has often been reluctant to reject qualified immunity for
deliberate indifference to medical need claims that ‘are highly fact-specific.’” Gilmore v. Hodges,
738 F.3d 266, 280 (11th Cir. 2013).
In 2013, the Eleventh Circuit acknowledged that “there was precious little case law
addressing an official’s failure to supply a severely hearing impaired inmate with hearing aids.”
Gilmore, 738 F.3d at 275 (11th Cir. 2013) (citing three unpublished circuit opinions and one
district court opinion). Other cases had addressed deprivations of dentures, eyeglasses, and
prostheses, but “these cases stopped short of stating a general principle applicable to all medical
devices, including hearing aids.” Id. at 279. Accordingly, the Court determined that there was no
clearly established law regarding the, provision of hearing aid batteries where the plaintiff had
clearly been prescribed a hearing aid for severe, bilateral hearing loss. See id. at 269-70.
Here, the Court has the benefit of the Eleventh Circuit’s guidance in this case, in the form
of the appellate review of the Court’s initial dismissal of this case. In the Eleventh Circuit’s order
vacating the dismissal of Plaintiff’s Complaint, the court observed:
We deem the allegations in Barcelona’s complaint as falling between the two sets
of circumstances described in Gilmore—substantial hearing loss that can be
remedied by a hearing aid, and hearing loss that does not prevent a prisoner from
carrying on a conversation or hearing directions from correctional officers without
a hearing aid - and this court has not yet addressed whether a prisoner’s loss of
hearing in one ear, which leads a doctor to prescribe a hearing aid, is insufficient
to constitute a serious medical need where the prisoner retains some level of
hearing in hi's other ear.
Barcelona v. Sec’y, Fla. Dep’t of Corr., 657 F. App’x 896, 898-99 (11th Cir. 2016) (emphasis
added). The Eleventh Circuit opinion unambiguously recognized'that its court has not addressed
whether the Gilmore standard extends to asymmetrical hearing loss': As a result; this Court cannot

v\

21

Case: 9:l5-cv-80102-RLR

Document #: 158 Entered on FLSD Docket: 09/10/2019

Page 22 of 24

conclude that Plaintiff had a “clearly established” right to a hearing aid, when he suffered
asymmetrical hearing loss with only mild hearing loss in one ear (as opposed to the plaintiffs
severe, bilateral hearing loss as in Gilmore).
In addition, at the time of the Eleventh Circuit’s opinion, the parties were under the
erroneous impression that Plaintiff s hearing aid request had been denied by a non-medical officer,
which the Eleventh Circuit assumed to be true at that stage of litigation. See id. at 898. However,
the record is now clear that it was not a non-medical officer, but a medical doctor, Dr. Herr, who
denied Plaintiffs request. See discussion supra, Section III.B.l. This fact is critical to assessing
whether any of the defendants were on notice that their conduct was unconstitutional.
This Court concludes that even if the Eleventh Circuit had not explicitly stated in its opinion
in this case that it had not addressed this question presented by this case, the Defendants here still
were not on notice that their conduct was unconstitutional in 2014. Gilmore did not give the
Defendants fair warning that their alleged conduct was unconstitutional, based on the facts of this
case, where: (a) the prisoner has asymmetrical hearing loss, (b) an outside doctor suggested
treatment options, (c) the prison-employed medical doctor did not ultimately agree with the outside
doctor’s treatment recommendation, and (d) the prison doctor’s determination was based on the
likelihood that such treatments would produce medically significant mitigation of the prisoner’s
hearing loss. This is a very different situation from the facts in Gilmore, where: (1) the prisoner
had already been prescribed hearing aids, (2) the prisoner suffered from bilateral hearing loss, (3)
the prisoner’s doctor “noted that binaural amplification is strongly recommended,” but (4) prison
officials, who were not medical doctors, had failed to provide the prisoner with batteries for his
hearing aids. See Gilmore, 738 F.3d at 269 (emphasis in opinion). Contra 6/6/14 Report, DE 11211 (“Amplification is not specifically recommended...However, the left ear is a candidate for a

22

Case: 9:15-cv-80102-RLR . Document #: 158 Entered on FLSD Docket: 09/10/2019 .

Page 23 of 24

hearing aid...”); 8/12/14 Report, DE 112-1, 26 (“Amplification is an option...A mild gain device
for the left ear may be beneficial.”).
Put simply, the constitutional question of whether Plaintiffs asymmetrical hearing loss
constituted a serious medical need was not beyond debate in 2014 when Plaintiffs hearing aid
request was denied. Therefore, Defendants are entitled to qualified immunity from this suit and
summary judgment must be entered in their favor.
V.

Conclusions

The Court concludes that Defendants are entitled to summary judgment. The Court finds
that as a matter of law, Defendants were not deliberately indifferent to Plaintiffs alleged serious
medical need. Dr. Herr made a medical judgment about Plaintiffs suitability for, and the
appropriateness of, a hearing aid, and determined that Plaintiff was not eligible for one. Medical
judgments, even those that prisoners.and other medical professionals disagree with, do not rise to
%■

the level of a constitutional violation. Warden Stine and Secretary Jones were then entitled to rely
on the medical judgment of the doctors charged with the medical care of prisoners in their care.
Additionally, the Defendants are immune from this suit. The Defendants, in their official
capacities, are absolutely immune from suits for damages under the Eleventh Amendment. The
Defendants, in their individual capacities, are protected by qualified immunity because the alleged
unconstitutionality of their conduct was not clearly established at the time of the events giving rise
to this suit.

,

Accordingly.it is hereby ORDERED AND ADJUDGED as follows:
1. Defendants’ Motion for Summary Judgment [DE 147] is hereby GRANTED.
2. The Clerk of the Court is directed to CLOSE this case..
3. All pending motions are hereby DENIED AS MOOT. All deadlines are TERMINATED.
All hearings are CANCELLED.
■
...............■
23

r

Case: 9:l5-cv-80102-RLR

Document#: 158 Entered on FLSD Docket: 09/10/2019

Page 24 ot 24

4. Defendant is ORDERED to file and email to the Court (Rosenberg@flsd.uscourts.gov) a
proposed Final Judgment Order within three business days of the rendition of this Order.
DONE AND ORDERED in Chambers at West Palm Beach, Florida, this 10th day of
September, 2019.
«

/

(

ROBIN L. ROSENBERG
UNITED STATES DISTRICT JUD
Copies to:
Counsel of Record, Clerk of Court, and
Joel Barcelona
M50331
Martin Correctional Institution
Inmate Mail/Parcels
1150 SW Allapattah Road
Indiantown, FL 34956
- •;
PRO SE
v

,«■

j-

f.

«

. . ■; t.. y?.

■

A

'

\.
/

24

Case 9:15-cv-80102-RLR Document 125 Entered on FLSD Docket 06/18/2019 Page'l ot.29 ,

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 15-80102-CV-ROSENBERG
MAGISTRATE JUDGE REID

.

JOEL BARCELONA,
Plaintiff,
vs.
JULIE JONES, et al.

■

Defendants.
; ’•

REPORT OF MAGISTRATE JUDGE RE
JOINT MOTION FOR SUMMARY JUDGMENT FILED BY
DEFENDANTS. JULIE L. JONES AND D. L. STINE
[ECF No. 114]
I. Introduction
This matter is currently before the court on the joint motion for summary
judgment filed by the defendants, Julie L. Jones and D. L. Stine. [ECF No. 114]. For
the reasons discussed below, the defendants' motion should be denied.
The pro se plaintiff, Joel Barcelona, a convicted felon, filed an amended pro
se civil rights complaint, pursuant to 42 U.S.C. §1983, suing Julie L. Jones, D. L.
Stein, and a non-medical provider employed by Corrections Health Care, arising
from a claim of deliberate indifference to a serious medical need due to the failure
to provide the plaintiff with a hearing aid. [ECF No. 36]. The plaintiff was previously
granted in forma pauperis status. [ECF No. 7].

Case 9:15-cv-80102-RLR Document 125 Entered on FLSD Docket 06/18/2019 Page 2 of 29

This case has been referred to the undersigned for the issuance of all
preliminary orders and any recommendations to the district court regarding
dispositive motions. See 28 U.S.C. § 636(b)(1)(B), (C); Fed. R. Civ. P. 72(b), S.D.
Fla. Local Rule 1(f) governing Magistrate Judges, and S.D. Fla. Admin. Order 201902.

II. Relevant Procedural History
Initially, the Plaintiffs original civil rights complaint [ECF No. 1] was
reviewed, in accordance with the Prison Litigation Reform Act (“PLRA”), 42 U.S.C.
1997e, a report was entered, recommending that the claim of deliberate indifference
to plaintiffs serious medical needs be dismissed for failure to state a claim upon
which relief can be granted. [ECF No. 8]. Following plaintiffs objections [ECF No.
9], the district court entered an order [ECF No. 10] adopting the report and
dismissing the case.
Petitioner appealed, and the Eleventh Circuit reversed and remanded, finding
in pertinent part, that the district court erred in dismissing the case “before the state
filed a response or the parties had conducted any discovery.. . “ [ECF No. 26, p.7].
In so ruling, the Eleventh Circuit noted that the allegations in the complaint indicated
that the plaintiff had “lost hearing in his right ear and that two doctors who examined
him had prescribed a hearing aid to treat his hearing loss.” Id. The court explained
that a “[substantial hearing loss that can be remedied by a hearing aid can present
-2-

1

1

Case 9:i5-cv-80102-RLR Document 125 Entered on FLSD Docket 06/18/2019 Page 3 of 29

an objectively serious medical need.” Id. (quoting Gilmore v. Hodges, 738 F.3d 266,
276 (11th Cir. 2013))(concluding correctional officers could be deemed deliberately
indifferent for failing to provide hearing aid batteries to a prisoner who the officers
knew required a hearing aid to treat his hearing impairment). As applied, the
Eleventh Circuit deemed the plaintiffs allegations to “fall between two sets of
circumstances described in C/Zmore—substantial hearing loss that can be remedied
by a hearing aid, and hearing loss that does not prevent a prisoner from carrying on
a conversation or hearing directions from correctional officers without a hearing
aid.” Id. at p. 8. The Eleventh Circuit noted that it had yet to address “whether a
prisoner's loss of hearing in one ear, which leads a doctor to prescribe a hearing aid,
is insufficient to constitute a serious medical need where the prisoner retains some
level of hearing in his other ear.” Id.
Following issuance of the mandate, because the plaintiffs initial complaint
did not set forth specific allegations against each named defendant, the plaintiff was
ordered to file and did file, an amended complaint, setting forth a claim of deliberate
indifference against Julie Jones, D. L. Stine, and the non-medical provider who
denied the plaintiffs prescribed hearing aid. [ECF No. 36].
The amended complaint was screened and. allowed to proceed on plaintiffs
claim of deliberate indifference against the three defendants. [ECF Nos. 40, 41].
After service was perfected and motions to dismiss denied, the defendants, Julie
-3-

1
Case 9:15-cv-80102-RLR Document 125 Entered on FLSD Docket 06/18/2019 Page 4 of 29

Jones, D. L. Stine, and the non-medical provider, later identified as Ewood, filed
answers and affirmative defenses. See [ECF Nos. 70, 75, 90, 92, 96].
The defendants, Julie Jones and D. L. Stine (jointly “the defendants”), have
now filed a joint motion for summary judgment [ECF No. 114] with supporting
statement of material facts [ECF No. 113] and exhibits [ECF No. 112], raising the
following arguments:
(1)

the defendants are entitled to judgment as a matter of law because
the plaintiff cannot show that the defendants were deliberately
indifferent to a serious medical need [ECF No. 114] p.7; and,

(2)

the defendants are entitled to qualified immunity because the
plaintiff has not demonstrated that there was a violation of a
constitutional right and that the right was clearly established at
the time of the alleged misconduct. [ECF No. 114] p.19.

Plaintiff has filed a response [ECF No. 120] with supporting affidavit [ECF
No. 120] p.24, and exhibits [ECF Nos. 120-1,120-2] in opposition to the defendants'
motion.
III. General Legal Principles
A. Civil Rights Standard
To state a claim under 42 U.S.C. § 1983, the plaintiff must allege:
(1) defendant(s) deprived him of a right secured under the United States Constitution
or federal law, and (2) such deprivation occurred under color of state law. U.S. Steel,
LLC v. Tieco, Inc., 261 F.3d 1275, 1288 (11th Cir. 2001). In addition, the plaintiff
-4-

PI
Case 9:15-cv-80102-RLR Document 125 Entered on FLSD Docket 06/18/2019 Page 5 of 29

must also establish an affirmative causal connection between the defendants'
conduct and the constitutional deprivation. Marsh v. Butler County, 268 F.3d 1014,
1039(11th Cir. 2001).
B. Law Governing Motion for Summary Judgment
A motion for summary judgment looks to “pierce the pleadings and to assess
the proof in order to see whether there is a genuine need for trial.” Matsushita Elec.
Indus. Co. v. Zenith Radio Corp., 475 U.S. 574, 587 (1986). Under Fed. R. Civ.
P. 56(a), summary judgment is proper “if the pleadings, depositions, answers to
interrogatories, and admissions on file, together with the affidavits, if any, show that
there is no genuine issue as to any material fact and that the moving party is entitled
to judgment as a matter of law.” Grayson v. Warden, Comm ’r, Ala. Dep ’t of Corr.,
869 F.3d 1204, 1220 (11th Cir. 2017) (quoting Celotex Corp. v. Catrett, 4-77 U.S.
317, 322 (1986)). In reviewing a motion for summary judgment, this court must
“view all of the evidence in the light most favorable to the nonmoving party and
draw all reasonable inferences in that party’s favor.” Furcron v. Mail Centers Plus,
LLC, 843 F.3d 1295, 1304 (11th Cir. 2016) (quoting FindWhat Investor Grp. v.
FindWhat.com, 658 F.3d 1282, 1307 (11th Cir. 2011)).
A district court ‘“may not weigh conflicting evidence or make credibility
determinations’” when reviewing a motion for summary judgment. Jones v. UPS
Ground Freight, 683 F.3d 1283, 1292 (11th Cir. 2012) (citing FindWhat, 658 F.3d
-5 -

Case 9:15-cv-80102-RLR Document 125 Entered on FLSD Docket 06/18/2019 Page 6 of 29

at 1307). As such, where the facts specifically averred by the non-moving party
contradict facts specifically averred by the movant, the motion must be denied,
assuming those facts involve a genuine issue of material fact. Lujan v. Nat 7 Wildlife
Fed’n, 497 U.S. 871, 888 (1990). However, “[w]hen opposing parties tell two
different stories, one of which is blatantly contradicted by the record, so that no
reasonable jury could believe it, a court should not adopt that version of the facts for
purposes of ruling on a motion for summary judgment.” Scott v. Harris, 550 U.S.
372, 380 (2007).
The moving party necessarily carries the burden of proof. Great Am. All. Ins.
Co. v. Anderson, 847 F.3d 1327, 1331 (11th Cir. 2017). In meeting that burden,
* nonmoving parties may rely on materials enumerated in Fed. R. Civ. P. 56(c),
■ meaning there are some materials that may be relied upon to avoid summary
judgment even though they would not be admissible at trial. Owen v. Wille, 117 F.3d
1235, 1236 (11th Cir. 1997) (quoting Celotex, All U.S. at 324). The court must also
consider any “specific facts” pled in the plaintiffs sworn complaint, based on
personal knowledge, and executed under penalty of perjury, in opposition to
summary judgment. See Fed. R. Civ. P. 56(e); Caldwell v. Warden, FCI Talladega,
748 F.3d 1090, 1098 (11th Cir. 2014).
Issues are genuine if there is sufficient evidence for a reasonable jury to return
a verdict for either party. Great Am., 847 F.3d at 1331 (relying upon Anderson v.
-6-

Case 9:15-Cv-80102-RLR Document 125 Entered on FLSD Docket 06/18/2019 Page 7 of 29

Liberty Lobby, Inc., All U.S. 242,248 (1986)). In a similar vein, “an issue is material
if it may affect the outcome of the suit under governing law.” Great Am., 847 F.3d
at 1331 (relying upon Anderson, All U.S. at 248). “A mere ‘scintilla’ of evidence
supporting the opposing party’s position will not suffice; there must be enough of a
showing that the jury could reasonably find for that party.” Walker v. Darby, 911
F.2d 1573, 1577 (11th Cir: 1990) (citing Anderson, All U.S. at 242). In sum, “if the
evidence is such that a reasonable jury could return a verdict for the nonmoving
party, courts should deny summary judgment.” Penley v. Eslinger, 605 F.3d 843,
848 (11th Cir. 2010).
IV. Relevant Facts
A. Uncontroverted Medical Evidence
%

The plaintiff was confined at South Bay Correctional Facility (“South Bay”)
from approximately May 2014 until August 2016. In May 2014, the plaintiff was
examined by South Bay registered nurse, J. Desmaris, who referred the plaintiff to a
clinician for a follow-up regarding right ear pain. [ECF No. 120-1, p. 20]. Thereafter,
he was seen by South Bay's Medical Director, Dr. Heller, who documented plaintiff s
complaints that he could not hear the correction officers’ directions, especially when
surrounding noises were present. [ECF No. 120-2, p. 2]. As a result, he referred the
plaintiff for a hearing evaluation. [ECF No. 120-1, p. 21].

-7-

Case 9:15-cv-80102-RLR Document 125 Entered on FLSD Docket 06/18/2019 Page 8 of 29

On June 6, 2014, the plaintiff was seen by Dr. Arthur G. Zinaman
(“Dr. Zinaman”), an audiologist, who noted that the plaintiff presented a :”history of
right-side hearing loss of questionable etiology.” [ECF No. 120-2, p.l]. Upon
examination, Dr. Zinaman found plaintiff suffered from “bilateral sensorineural
hearing loss,” that is “mild in the left and profound in the right ear.” [Id.]. Dr.
Zinaman opined, at the time, that “[amplification is not specifically recommended
on the right side due to the severity of the hearing loss and poor word discrimination
exhibited.” [Id.]. Dr. Zinaman determined that, “[U]pon medical clearance and
(South Bay Correctional) facility authorization, a hearing aid for the left ear would
be beneficial.” [Id.]. He found the A Starkey X Series ITC to be an appropriate
device for the plaintiff. [Id.]. The doctor also recommended a medical follow-up to
i'

rule out retrocochlear pathology secondary to asymmetrical hearing loss. [Id.]. It
appears from the June 6, 2014 audiometry test that the plaintiff had an average of
30 dB between the levels of 1,000 Hz and 2,000 Hz, and 30 dB air conduction level
at 500 Hz and 1,000 Hz. [ECF No. 120-2, p. 30], [ECF No. 112-1, p.13].
Dr. Heller's June 25, 2014 Chronological Record of Health Care notation
reveals the plaintiff was suffering from “mild” hearing loss in the left ear, and
“profound loss” in the right ear. [ECF No. 120-2. p. 3]; [ECF No. 112-1, p. 16].
After Dr. Zinaman's recommendation for an MRI consultation was approved
and performed by Dr. Scott Ruehrmund, the doctor found the MRI of the brain and
-8-

Case 9:15-cv-80102-RLR Document 125 Entered on FLSD Docket 06/18/2019 Page

internal auditory canals to be “unremarkable.” [ECF No. 120-2, p. 9], [ECF No. 1121, p. 22].

-

Post-MRI, the plaintiff was seen by Dr. Zinaman on August 12, 2014. [ECF
No. 120-2, p. 3], [ECF No. 112-1, p. 26]. At that time, Dr. Zinaman found as follows:
Amplification is an option for patient. A mild gain
device for the left ear may be beneficial, but this is
declined by the patient. Alternatively, a power instrument
for the right ear may provide speech and environmental
awareness with possible transcranial effect. Mr. Barcelona
is agreeable to this plan.
Appropriate amplification deemed for the right ear is
Starkey 3 Series 110 BTE 13....
[ECF No. 120-2, p. 13], [ECF No. 112-1, p. 26] (emphasis added)
Following Dr. Zinaman's report, Dr. Heller saw the plaintiff on August 18th,
v

noting in the Chronological Record of Health Care “status of hearing aid approval,”
and in further indistinguishable writing, noted “writte[n] for right hearing aid. . .”
[ECF No. 120-2, p. 12], [ECF No. 112-1, p. 25].
Thereafter, notations made by C. Steele, the South Bay Consult Coordinator,
in the plaintiffs Chronological Record of Health Care, reveals that, after the
audiologist's report was sent to the “UM for review,” the referral was “deferred by

-9-

Case 9:15-cv-80102-RLR Document 125 Entered on FLSD Docket 06/18/2019 Page 10 of 29

UM” because the plaintiff had “adequate hearing in one ear,” and as such, was “not
a candidate for [a] hearing aid.” [Id.]. i
The notations by Dr. Heller in plaintiffs Chronological Record of Health Care
for September 2014 reveals that he reviewed the report recommending a hearing aid,
and explained to the plaintiff that “CHC ‘deferred’”2 its authorization. [ECF No.
120-2, p. 14], [ECF No. 112-1, p. 27]. On September 11, 2014, Dr. Heller again
noted that he had discussed the "hearing issue" with the plaintiff, and noted 'T/M
[inmate] to write grievance." [ECF No. 120-2, p.16], [ECF No. 112-1, p. 29].
On October 2, 2014, the South Bay Health Services Administrator, Nancy
Finisse, noted on the plaintiffs Chronological Record of Health Care that she had
reviewed formal grievance “062” regarding “hearing aid device,” but “UM denied
based on 15.03.27” because the plaintiff only suffered from “right hearing loss” and
he “must have bilateral hearing loss,” to be a qualifying candidate for the device.
[ECF No. 120-2, p. 16], [ECF No. 112-1, p. 29].
The purpose of the Florida Department of Corrections (“FDOC”), Health
Services Bulletin No. 15.03.27 (“HSB 15.03.27”), regarding Auditory Care Services
in Institutions, effective April 9, 2014, “is to establish uniform procedures for the

Utilization Management is commonly abbreviated in the Chronological Record of Health
Care as "UM."
2The abbreviation on the inmate’s account “CHC” arguably refers to the medical provider
of the facility.
- 10-

Case 9:15-cv-80102-RLR Document 125 Entered on FLSD Docket 06/18/2019 Page 11 of 29

provision of auditory care to inmates. This shall include the treatment and/or
provision of appropriate corrective systems to inmates; proper evaluation services to
those inmates who experience a hearing problem or deficiency; and to attempt to
prevent or minimize further deterioration to hearing acuity.” [ECF No. 120-2, p. 37],
[ECFNo. 112-1 Ex.3, p.l .
Pursuant to HSB 15.03.27(G)(1), the hearing loss criteria requires:
1.

The recipient must have a bilateral (both ears) hearing
loss. A recipient who has a unilateral (one ear) hearing loss
is not eligible for services. Exceptions to this policy may
be granted on a case-by-case basis as recommended by
an otolaryngologist or otologist, with approval of the
regional medical director.

2.

A simple screening test shall be performed to determine if
the recipient has a bilateral hearing loss and meets the
following criteria:
a.

Tests of the better ear after treatment of any
condition contributing to the hearing loss reveal an
average hearing loss level of 40 dB or greater
(current ANSI standards) for 500, 1,000, and 2,000
Hz by puretone air conduction; OR,

b.

The difference between the level of 1,000 Hz and
2,000 Hz is 20 dB or more while the average of
the air conduction level (current ANSI
standards) at 500 Hz and 1,000 Hz is 30 dB or
greater.

[ECF No. 120-2, p. 38]; [ECF No. 112-3, p. 2] (emphasis added).

-11 -

Case 9:15-cv-80102-RLR Document 125 Entered on FLSD Docket 06/18/2019 Page 12 of 29

B. Relevant Uncontroverted Grievance Evidence
In October 2014, Dr. Heller prepared and signed a response to plaintiffs
grievance, no. 1409-405-062, stating:
RECORDS INDICATE YOU ONLY HAVE HEARING
LOSS IN YOUR RIGHT EAR. PER POLICIES AND
PROCEDURES, IN ORDER TO BE ELIGIBLE FOR
SERVICES, THE RECIPIENT MUST HAVE A
BILATERAL (BOTH EARS) HEARING LOSS. A
REFERRAL WAS SUBMITTED, BUT DENIED
BECAUSE YOU DO NOT MEET THIS CRITERIA
BASED ON YOUR EVALUATION FROM THE
AUDIOLOGIST.
BASED ON THE ABOVE INFORMATION YOUR
GRIEVANCE IS DENIED... .
[ECF No. 120-1, pp. 4, 10]; [ECF No. 112-2, p. 3],
On December 29, 2014, Ebony O. Harvey, IISC, an employee of the FDOC,
?

Inmate Grievance Appeals, denied the plaintiffs appeal, finding:
Your request for administrative remedy was received at
this office and it was carefully evaluated. Records
available at this office were also reviewed.
It is determined that the response made to you by Dr.
Heller on 11/25/14 appropriately addresses the issues
you presented.
It is the responsibility of your health care staff to
determine the appropriate treatment regime for the
condition you are experiencing....
[ECF No. 120-1, p. 14] (emphasis added).
-12-

Case 9:15-cv-80102-RLR Document 125 Entered on FLSD Docket 06/18/2019 Page 13 of 29

C. Plaintiffs Facts-[ECF No. 120]
The plaintiffs sworn facts, as set forth in his Affidavit in opposition to
summary judgment, reveal that, starting in May 2014, he complained to Dr. Heller,
the Medical Director at South Bay, that he was suffering from hearing loss in his
right ear. [ECF No. 120, p. 24]. Plaintiff alleges that he cannot hear South Bay's
“loud speaker, the television, mail calls, nor when other inmates are yelling behind
him.” [ECF No. 120, p. 11].
The plaintiff states Dr. Heller agreed with the recommendations of two
physicians that he be provided a hearing aid. [Id., p.ll, 24:]j3]. However, on
September 4, 2014, Dr. Heller informed him that “a non-medical official employed
at C.H.C., the medical provider at South Bay C.F.,” later identified by the plaintiff
as

as FNU Ewood, refused to authorize payment for the hearing aid. [Id.] T|4. On
September 11, 2014, Dr. Heller advised plaintiff that “Ewood” refused to authorize
the hearing aid because the plaintiff could hear from one ear. [Id., ^5],
Plaintiff alleges that Ewood and D. L. Stine, both non-medical providers,
violated his constitutional rights by ignoring the prescriptions of two physicians who
opined that a hearing aid was medically necessary. [Id., p.25, ]f6]. He claims Stine
was deliberately indifferent in determining the plaintiff did not meet the criteria for
a hearing aid, because the plaintiff only suffered from hearing loss in his right ear.

-13-

Case 9:15-cv-80102-RLR Document 125 Entered on FLSD Docket 06/18/2019 Page 14 of 29

[Id., TJ7]; see also [ECF No. 120-1, Ex. A, p. 4-Grievance Log No. 1409-405-062,
dated October 8, 2014, signed by Stine].
Plaintiff also states that, on November 16, 2014, he appealed to Defendant,
Julie L. Jones (“Jones”"), then acting Secretary for the Florida Department of
Corrections (“FDOC”), again requesting re-authorization for the hearing aid
prescribed by two physicians and recommended by Dr. Heller. [ECF No. 120, p. 27,
1J8]. He states Jones, and/or someone acting on her behalf, denied the request, relying
upon Dr. Heller's November 25,2014 response to plaintiffs grievance. [Id.]. Plaintiff
states that Jones has personally participated or otherwise learned of the violation of
plaintiffs rights and has failed to correct the problem. [Id., p. 14]. He further states
that Jones has created a policy or custom that allows or encourages the violation of
prisoner's rights, or is otherwise grossly negligent in managing or supervising her
subordinates. [Id.].
According to the plaintiff, the South Bay and FDOC policies and procedures
relied upon by the defendants to reject the authorization for payment of plaintiffs
right ear hearing aid for an inmate like him, suffering from severe hearing loss in
one ear and mild hearing loss in the other, violates the Eighth Amendment. [ECF
No. 120, p. 27]. He maintains the hearing device is medically necessary, that Dr.
Heller, the Medical Director at South Bay, agreed to provide him with the hearing

-14-

Case 9:15-cv-80102-RLR Document 125 Entered on FLSD Docket 06/18/2019 Page 15 of 29

aid, but that the named defendants failed or refused to authorize its payment. [ECF
No. 120, pp.27-28].
D. Defendants' Facts-[ECF No. 113]
On the other hand, the Defendants present the following facts, derived from
their Joint Statement of Material Facts [ECF No. 113], together with the Affidavits
from D. L. Stine and Dr. Timothy E. Whalen, medical and grievance records, and
FDOC Health Services Bulletin 15.03.27. See [ECF No. 113]; [ECF No. 112, Exs. 15]-

Stine, the South Bay Warden from June 2013 through July 2016, states he
deferred to medical providers at South Bay and “Utilization Management” regarding
inmate medical treatment and authorizations for medical devices. [ECF No. 112-4,
^[10]. Stine maintains he was not in a position to override the recommendation of
medical staff or Utilization Management regarding the authorization for medical
devices or medical treatment. [Id., ^[11]. As the South Bay Warden, he signed
responses to grievances prepared by medical staff at South Bay and then “signed by
a physician, or for administrative issues, by a Health Services Administrator.” [Id.,
1[13]. Although he would ensure that medical reviewed the inmate's concern and
provided a full response to the inmate's complaint/grievance,” he “would not
disagree with” or “change” the medical provider's response as he was not a medical
person and did not have medical training. [Id.]. Stine admits he reviewed Dr. Heller's
-15 -

Case 9:T5-cv-80102-RLR Document 125 Entered on FLSD Docket 06/18/2019 Page 16 of 29

October 8, 2014 response to plaintiffs grievance no. 1409-405-062, but denies
interfering with or altering Dr. Heller's response. [Id., 14].
Although Jones and Stine agree that grievance appeal no. 14-6-40126 was
submitted to Jones, as the FDOC Secretary, Ebony O. Harvey, IISC, responded to
the grievance and Jones did not personally review it. [ECF No. 113, ^[^[21-23].
Timothy E. Whalen, M.D. ("Dr. Whalen"), the Chief Clinical Advisor for the
FDOC has provided an affidavit in which he states that he has reviewed the plaintiff s
South Bay medical records, and is familiar with the criteria required for FDOC
inmates to obtain hearing aids. [ECF No. 112-5, f4]. He also states he is familiar
with FDOC, HSB 15.03.27, which was established to provide uniform procedures
for the provision of auditory care to inmates until its replacement on November 1,
2018 by HSB 15.03.25.01. [Id., j[5]. He maintains that under HSB 15.03.27(G)(1),
the inmate must have a bilateral hearing loss to qualify for a hearing aid. [Id., Tf5].
He states that an inmate with hearing loss in only one ear will not be eligible for
auditory services. [Id.].
Dr. Whalen states he reviewed the plaintiffs June 2, 2014 audiometry testing
results. [Id., *\6]. According to Dr. Whalen, under 15.03.27(G)(1), testing of the
plaintiffs better ear—the left ear—"did not demonstrate an average hearing loss of 40
dB or greater at the frequencies of 500, 1,000 and 2,000 Hz.” [Id.]. Although Dr.
Whalen does not state whether the plaintiff would qualify under 15.03.27(G)(2), the
-16-

Case 9:15-cv-80102-RLR Document 125 Entered on FLSD Docket 06/18/2019 Page 17 of 29

doctor concludes that “Barcelona's results demonstrate that there was no objective
hearing loss above 35 dB for any frequency tested.” [Id.]. Dr. Whalen concludes
that, based on his interpretation of the audiometry results, the plaintiff “did not meet
the medical criteria guidelines for bilateral hearing loss under HSB 15.03.27 and was
therefore not eligible for services.” [Id., ^7]. Without explanation, Dr. Whalen also
concluded that “Mr. Barcelona did not meet an exception under HSB 15.03.27.” [Id.,
1J9]. Dr. Whalen does admit he “did not make any decisions regarding to [sic] the
medical basis for Barcelona's hearing, the policies and procedures for authorizing
payment for hearing aids or Barcelona's eligibility for medical services or a hearing
device.” [Id., ]|10]. He further denies that there was any directive by the FDOC
regarding cost saving measures on medical care by delaying or denying medical care
■f

or hearing aid devices to FDOC inmates. [Id., |11]. He denies that cost was a factor
in determining whether the plaintiff met the criteria for a hearing aid. [Id., If 12].
V. Discussion & Analysis
The defendants have claimed that they are entitled to summary judgment as a
matter of law, pursuant to Fed. R. Civ. P. 56, because the pleadings and record
evidence show that there is no genuine dispute as to any material fact on the
deliberate indifference claim. [ECF No. 114]. Defendants also argue that they are
entitled to qualified immunity. Id.

-17-

Case 9:15-cv-80102-RLR Document 125 Entered on FLSD Docket 06/18/2019 Page 18 of 29

Plaintiff opposes the grant of summary judgment. [ECF No. 120]. For the
reasons discussed below, summary judgment should be DENIED.
A. Deliberate Indifference Standard
1. Applicable Law Regarding Deliberate Indifference
The Eighth Amendment of the United States Constitution forbids “cruel and
unusual punishments.” U.S. Const, amend. VIII. “The Eighth Amendment is
applicable to the states through the Fourteenth Amendment.” Bingham v. Thomas,
654 F.3d 1171, 1175 (11th Cir. 2011) (quoting Chandler v. Crosby, 379 F.3d 1278,
1288, n. 20 (11th Cir. 2004)). The United States Supreme Court has made clear that
the Eighth Amendment proscribes a state actor’s “deliberate indifference to serious
medical needs of prisoners.” See Bingham v. Thomas, 654 F.3d at 1175 (quoting
Estelle v. Gamble, 429 U.S. 97, 104 (1976) (internal citation omitted)).
“[A] serious medical need is considered one that has been diagnosed by a
physician as mandating treatment or one that is so obvious that even a lay person
would easily recognize the necessity for a doctor's attention.” See Farrow v. West,
320 F.3d 1235, 1243 (11th Cir. 2003)(intemal quotation marks omitted). The term
“deliberate indifference” includes the intentional denial or delay of access to medical
care. See Estelle v. Gamble, 429 U.S. at 104. Deliberate indifference to serious
medical needs is also exhibited by intentional interference with treatment already
prescribed. Id. at 105. But not every claim by a prisoner that he did not receive
-18 -

Case 9:15-cv-80102-RLR Document 125 Entered on FLSD Docket 06/18/2019 Page 19 of 29

adequate medical treatment articulates an Eighth Amendment violation. Id. at 10506.
To establish an Eighth Amendment claim for deliberate indifference to serious
medical needs, a plaintiff must satisfy an objective and subjective requirement. See
Bingham v. Thomas, 654 F.3d 1171, 1175-1176 (11th Cir. 2011)(citing Taylor v.
Adams, 221 F.3d 1254, 1258 (1.1th Cir. 2000)). To satisfy the objective component,
the plaintiff must demonstrate “(1) ‘an objectively serious medical need. . . that, if
left unattended, poses a substantial risk of serious harm,’ and (2) that the prison
official's response ‘to that need was poor enough to constitute an unnecessary and
wanton infliction of pain, and not merely accidental inadequacy, negligence in
diagnosis or treatment, or even medical malpractice actionable under state law.’”
Id., 654 F.3d at 1176 (quoting Taylor v. Adams, 221 F.3d at 1258).
To satisfy the subjective component, the plaintiff must show “a prison
official's subjective intent to punish by demonstrating that the official acted with
deliberate indifference.” Id., 654 F.3d at 1176 (citing Taylor v. Adams, 221 F.3d at
1258). “To satisfy this requirement, a prisoner must show the prison official's:
‘(1) subjective knowledge of a risk of serious harm; (2) disregard of that risk; and
(3) by conduct that is more than mere negligence.’” Id., 654 F.3d at 1176 (quoting
Brown v. Johnson, 387 F.3d 1344, 1351 (11th Cir. 2004)). “Conduct that is more
than mere negligence includes: (1) grossly inadequate care; (2) a decision to take an
-19-

m

Case 9:15-cv-80102-RLR Document 125 Entered on FLSD Docket 06/18/2019 Page 20 of 29

easier but less efficacious course of treatment; and (3) medical care that is so cursory
as to amount to no treatment at all.” Id., 654 F.3d at 1176 (quoting Brown v. Johnson,
387 F.3d at 1351). A prison official “who delays necessary treatment for nonmedical reasons may exhibit deliberate indifference.” Id., 654 F.3d at 1176 (quoting
Hill v. Dekalb Reg'l Youth Det. Ctr., 40 F.3d 1176, 1187 (11th Cir. 1994), abrogated
on other grounds by Hope v. Pelzer, 536 U.S. 730 (2002)). Further, and as relevant
here, an Eighth Amendment violation “may also occur when state officials
knowingly interfere with a physician's prescribed course of treatment.” Id., 654 F.3d
at 1176 (citing Young v. City ofAugusta, Ga., 59 F.3d 1160, 1169, n. 17 (11th Cir.
1995)).
2. Analysis
a. Objective Standard-Serious Medical Need
The plaintiff alleges that he suffers from a serious medical need. It is
uncontroverted that the plaintiff has severe hearing loss in his right ear, and a mild
hearing loss in his left ear. As a result of this hearing loss, the plaintiff maintains that
he cannot hear the television, loud speaker, correctional officers' mail calls, or other
inmates. The Eleventh Circuit has made clear that a “[substantial hearing loss that
can be remedied by a hearing aid can present an objectively serious medical need.”
Barcelona v. Sec'y, Fla. Dep't of Corr's, 657 F. App’x 896, 898 (quoting Gilmore v.
Hodges, 738 F.3d 266, 276 (11th Cir. 2013)). The Eleventh Circuit has cautioned,
-20-

1

«

Case 9:15-cv-80102-RLR Document 125 Entered on FLSD Docket 06/18/2019 Page 21 of 29

however, that not all hearing loss amounts to a serious medical condition. Barcelona
v. Sec'y, Fla. Dep't of Corr's, 657 F. App’x at 898 (quoting Gilmore v. Hodges, 738
F.3d at 276). If a prisoner can carry on a conversation or hear and follow directions
without a hearing aid, then courts “would be hard pressed to classify the plaintiffs
impairment as a serious medical need.” Barcelona v. Sec'y, Fla. Dep't of Corr's, 657
F. App’x at 898 (quoting Gilmore v. Hodges, 738 F.3d at 276-77).
As applied, there remains a genuine issue of material fact regarding whether
the plaintiff suffers from an objectively serious medical need. Dr. Zinaman's report
revealed that the plaintiff has a profound hearing loss in the right ear, and a mild
hearing loss in the left, requiring treatment. The plaintiff alleges he cannot hear the
loud speaker, commands from correctional officials, and other inmates. When
viewing the evidence in the light most favorable to the plaintiff, as the non-movant,
the court finds that the plaintiff suffers from “[A] serious medical” which “has been
diagnosed by a physician as mandating treatment. ...” See cf. Mann v. Taser Int'l,
Inc., 588 F.3d 1291, 1307 (11th Cir. 2009)). “[A]n inmate's inability to hear may
render him exceedingly vulnerable to danger and harm from unperceived
surroundings.” See Gilmore v. Hodges, 738 F.3d at 275 (citing Koehl v. Dalsheim,
85 F.3d 86, 87-88 (2d Cir. 1996)(finding inmate's unmet need for prescription
eyeglasses constituted serious medical need where inmate suffered headaches, vision
and depth perception deterioration, and visual deficiencies causing him to fall or
-21 -

Case 9:15-cv-80102-RLR Document 125 Entered on FLSD Docket 06/18/2019 Page 22 of 29

walk into objects)).
b. Subjective Element
Jones and Stine next argue that the plaintiff cannot prove they had subjective
knowledge of a risk of harm, that they disregarded the risk, or engaged in conduct
that was more than negligent. [ECF No. 114, p. 9]. They argue that Dr. Heller
advised the plaintiff that he did not meet the FDOC guidelines based on the
audiologist's reports, which they maintain confirm the plaintiff could hear out of one
ear. [ECF No. 114, 'p. 15]. They suggest that Dr. Heller's medical decision does not
“give rise to liability” for them. [Id.]. Jones and Stine also argue they did not
participate in the authorization or denial of the plaintiffs hearing aid request. [ECF
No. 114, p. 9]. The defendants claim there has been no evidence that they exhibited
a course or custom of delaying medical care or administering cheaper care to the
detriment of South Bay inmates. [Id.].
It is uncontroverted that, in denying plaintiffs grievance, regarding the denial
of the authorization for a right ear hearing device, Dr. Heller responded and Stine
affirmed, as evidenced by his signature, that a “referral was made,” but it was
“denied” on the basis that the plaintiff did not meet the criteria according to the
audiologists’ evaluation. [ECF No. 120-1, p. 4]. The plaintiffs Chronological
Record of Health Care, however, reveals that the “audiology referral deferred by
UM” because of “adequate hearing in one ear,” finding the plaintiff “was not a
- 22 -

Case 9:15-cv-80102-RLR Document 1.25 Entered on FLSD Docket 06/18/2019 Page 23 of 29

candidate” for a hearing aid. [ECF No. 120-2, p. 12]. In fact, Dr. Heller himself noted
in plaintiffs chart that "CHC deferred'" the audiologist's referral. [Id., p.14].
The uncontroverted evidence further reveals that, following the results of an
MRI, Dr. Zinaman found that a “mild gain device for the left ear may be beneficial,”
but alternatively, “a power instrument for the right ear may provide speech and
environmental awareness with possible transcranial effect.” [DE#112-2, p. 13]
(emphasis added). Plaintiff declined the left ear device, but agreed with the doctor's
recommendation for the right ear. [Id.].
The plaintiff has alleged that Jones and Stine were aware, through plaintiffs
grievances and the responses generated by them or on their behalf, that he was being
,

^

■

■

denied a much needed hearing device. The plaintiff has provided evidence showing
that his grievance appeal was denied by Jones' subordinate based on a policy that
she is unjustly enforcing, or is misapplying, without considering the doctor's
recommendations.
Jones and Stine have provided an affidavit from Jones' employee, Dr. Whalen,
in which he concludes that Dr. Zinaman's audiometry test results confirmed that the
plaintiff did not meet the criteria for bilateral hearing loss under HSB 15.03.27. [ECF
No. 112-5, p. 2]. He does not specify which subsection of that bulletin he is relying
upon to arrive at this general conclusion. Further, there is nothing in the denials of
plaintiffs grievances to indicate whether or not the plaintiff met the criteria for a
-23-

Case 9:15-cv-80102-RLR Document 125 Entered on FLSD Docket 06/18/2019 Page 24 of 29

hearing device under HSB 15.03.27(G)(2)(b).
In any event, when viewing the evidence in the light most favorable to the
plaintiff, as the non-movant, the plaintiff has alleged sufficient facts to support a jury
finding that the defendants were aware that the plaintiff was suffering from a serious
medical need, that they ignored that need, or otherwise engaged in conduct that was
more than mere negligence, in light of Dr. Zinaman’s recommendations. The
plaintiff has alleged and Dr. Zinaman's records support a finding that he suffers from
severe hearing loss in his right ear, and mild hearing loss from his left ear, for which
he opined that the plaintiff could benefit from a “power instrument” for the right ear
because it “may provide speech and environmental awareness with possible
transcranial effect.” [ECF No. 120-2, p. 13]. Given the plaintiffs allegations, together
with Dr. Zinaman's report, there is a genuine issue of fact regarding whether the
defendants were aware of the risk of harm and purposefully ignored the condition,
thereby violating plaintiffs constitutional rights.
3. Conclusion
For all of the foregoing reasons, the motion for summary judgment [ECF No.
114], based on a failure to state a deliberate indifference claim, should be DENIED.
B. Qualified Immunity
1. Applicable Law
A state actor, sued in his or her individual capacity, pursuant to 42 U.S.C.
-24-

Case 9:15-cv-80102-RLR Document 125 Entered on FLSD Docket 06/18/2019 Page 25 of 29

§ 1983, is entitled to raise qualified immunity as a defense. See Wilson v. Strong,
156 F.3d 1131, 1135 (11th Cir. 1998). To prevail on a qualified immunity defense,
the defendants must demonstrate that the conduct complained of took place while
they were performing a discretionary function. See Johnson v. Boyd, 701 F. App’x
841, 848 (11th Cir. 2017). Once this showing has been made, the burden then shifts
to the Plaintiff to demonstrate that: “(1) the officers violated a constitutional right;
and, (2) the right was clearly established at the time of the violation.” Johnson v.
Boyd, supra.; Pearson v. Callahan, 555 U.S. 223, 232 (2009). The constitutional
right must be sufficiently clear for a reasonable official to understand that what he
is doing violates that right. Hope v. Pelzer, 536 U.S. 730, 739 (2002); Vinyard v.
Wilson, 311 F.3d 1340, 1353 (11th Cir. 2002)(citations omitted).
a. Discretionary Function
The defendants argue they are entitled to qualified immunity because they
were performing a discretionary function. [ECF No. 114, p. 19]. Plaintiff argues they
are not entitled to qualified immunity.
“’To establish that the challenged actions were within the scope of their
discretionary authority, the defendants must show that those actions were
(1) undertaken pursuant to the performance of his [their] duties, and (2) within the
scope of his [their] authority.”’ See Estate of Cummings v. Davenport, 906 F.3d 934,
940 (11th Cir. 2018), pet. for cert, docketed by Davenport v. Estate of Cummings,
-25 -

Case 9:15-cv-80102-RLR Document 125 Entered on FLSD Docket 06/18/2019 Page 26 of 29

No. 18-1191 (May 23, 2019)(quoting Harbert Int'l, Inc. v. James, 157 F.3d 1271,
1281 (11 th Cir. 1998)). Courts must determine “whether the government employee
was (a) performing a legitimate job-related function (that is, pursuing a job-related
goal), (b) through means that were within his power to utilize.” See Id. at 940
(quoting Holloman ex rel. Holloman v. Harland, 370 F.3d 1252, 1265 (11th Cir.
2004)). To apply each prong of the test, courts “look to the general nature of the
defendant's action, temporarily putting aside the fact that it may have been
committed for an unconstitutional purpose, in an unconstitutional manner, to an
unconstitutional extent, or under constitutionally inappropriate circumstances.” Id.
at 940 (quoting Mikko v. City of Atlanta, 857 F.3d 1136, 1144 (11th Cir. 2017)
(quoting Holloman v. Harland, 370 F.3d at 1266)).
>:■

However, “[A] government official can prove he acted within the scope of his
discretionary authority by showing ‘objective circumstances which would compel
the conclusion that his actions were undertaken pursuant to the performance of his
duties and within the scope of his authority’” Id. at 940 (quoting Rich v. Dollar, 841
F.2d 1558, 1564 (11th Cir. 1988) (quoting Barker v. Norman, 651 F.2d 1107, 1121
(5th Cir. Unit A July 1981)).
In any event, as is the case here, the defendants' conclusory or “bald assertion”
that “the complained-of actions were. . . within the scope of his discretionary
authority” is insufficient to demonstrate that they were acting within the scope of
-26-

Case 9:15-cv-80102-RLR Document 125 Entered on FLSD Docket 06/18/2019 Page 27 of 29

their discretionary authority. See Id. at 940 (quoting Barker v. Norman, 651 F.2d at
1124-25). When viewing the evidence in the light most favorable to the plaintiff, as
the non-movant, the defendants have not demonstrated that they were acting within
the scope of their discretionary function.
b. Clearly Established Constitutional Violation
Even assuming, without deciding, that the defendants' argument established
they were acting within their discretionary authority, the burden would then shift to
the plaintiff to establish (1) whether the facts that the plaintiff has shown make out
a violation of a constitutional right; and (2) whether the right at issue was clearly
established at the time of the defendants' alleged misconduct. See Gilmore v.
Hodges, 738 F.3d at 272 (citing Pearson v. Callahan, 555 U.S. 223, 232 (2009)).
%

In 2014, when the defendants denied the recommended hearing aid, the law

was well settled that the failure to provide an inmate with a medical device necessary
to remedy a “significant and substantial hearing loss is a serious medical need,”
thereby providing the defendants with fair warning that their actions violated the
plaintiffs constitutional rights. See Barcelona v. Sec'y, Fla. Dep't of Corn's, 657 F.
App’x at 898 (citing Gilmore v. Hodges, 738 F.3d 266 (11th Cir. 2013) (finding a
“[substantial hearing loss that can be remedied by a hearing aid can present an
objectively serious medical need”)).

-27-

Case 9:15-cv-80102-RLR Document 125 Entered on FLSD Docket 06/18/2019 Page 28 of 29

2. Conclusion
Given the foregoing, when viewing the evidence in the light most favorable
to the plaintiff, the defendants have not demonstrated that they are entitled to
judgment as a matter of law based on qualified immunity.
VI. Recommendation
Based upon the foregoing, the undersigned recommends that the motion for
summary judgment (DE#114) filed by defendants, Julie Jones and D.L. Stine, be
DENIED
Any party who objects to this recommendation or anything in it must, within
fourteen (14) days of the date of service of this document, file specific written
objections with the Clerk of this court. Failure to do so will bar a de novo
determination by the district judge of anything in the recommendation and will bar
an attack, on appeal, of the factual findings of the Magistrate Judge. See 28 U.S.C.
§ 636(b)(1); Thomas v. Am, 474 U.S. 140, 149 (1985); RTC v. Hallmark Builders,
Inc., 996 F.2d 1144, 1149 (11th Cir. 1993).
Signed this 18th day of June, 2019.

UNITED STATES MAGISTRATE JUDGE

-28-

1
Case 9:15-cv-80102-RLR Document 125 Entered on FLSD Docket 06/18/2019 Page 29 of 29

cc:

Joel Barcelona, Pro Se
DC#M50331
Northwest Florida Reception Center
Inmate Mail/Parcels
4455 Sam Mitchell Drive
Chipley, FL 32428
Jeffery Rodman Lawley, Esquire
Attorney for Defendants
Billing, Cochran, Lyles, Mauro & Ramsey, PA
515 E. Las Olas Boulevard, Suite 600
Fort Lauderdale, FL 33301
Email: irl@bclmr.com

-29-

Mel Grant Au.D,, Doctor of Audioiogy/Clinicol Director
Arthur G. Zinamart, Au.D.
Doclor of Audiology

Kathryn V, Wilder, Au.D.
Doctor of Audiology

Wendy Grant, MA, C.C.C.

Scott Atman, HAS
Hearing Aid Spsa'aM

Speech/laiiguoge PolWogist

South Bay Correctional Facility
B00USHWY27
South Bay, fL 33493
RE: Joel Barcelona

08/12/14
To whom ft may concern/
Joef Barcelona was seen at our office status past.MR] conducted to rufe out retrocochlear
pathology, The radiologist's Impression Is that of ah "unremarkable" MRl,
Amplification is an option for patient. A mild gain device for the left ear may be beneficial, but
this Is declined by patient. Alternatively, a power instrument for the right ear may provide
speech and environmental awareness with possible transcranial effect, Mr. Barcelona Is
agreeable to this plan.
Appropriate amplification deemed for the right ear is Starkey 3 Series 1110 BTE13. This device
includes earmold, 3 year warranty/lnsurance, and all follow-up services. The cost of this
Instrument is $3499.00
We would be happy to assist this patient toward this end upon facility authorization or approval
for such. If you have any questions, please contact us at any time.

;
!

ncerely.
/
— $
'Dr, Afiftur G./ZI

hman

'

Audiologist (s'
Reply to:
Poinpiarta Professional Confer
3540 Foes! H(!i
Se. 205
Wefi Palm Beach, fl 33406

Gardens Medical Pa A
3385 £k*r.t Rd.

Palm Beach
241 Simrfce tws.

Ste. 103

Pair's Beach,'R 33460

Palm Beoch C^tdons, ft 334)0

Jupiter
50 S. US H*y Ote
$k». 210
Jupitet ft 33477

Phone: (561) 649-4006 - Fax (561) 969-6621

Loxahotehee
1 SOOSSsjfherri 3W.
Se. 13!
loxahoteheQ, R 33470

i

0i.Z'Z09-£S ainy ui aauaiajsy k\ pejaiochoauj.. ., . (m/8/fr aAfloajjg) kOirtOQ
•

*

uoi;wnpa-a
.....usid-a
B1B<1 O P^8 S J° ;U3U1SS9SSY -v . BlBQ SApaafqo-O .
.....ajBd^pwfqns-s',...^

*v-

■-

•

:

ro/c7

quia jo ajsa

^
T?

lec.asut'’ #0<3

xas/w^|

Wyf&U&j',B8Nw«[

...

••* -./.r ♦•te.........

tV

.t“»

. .

•• . .. .

r

-?m
~ 4.

i

—

.........

i

-pmmm.

i
../

•

..

/•

i

.6/

&

Qi.
S=H-

‘^7~T~vF7rT
a nw' y-

<r

■

x

ziH3

^ ^15- "j '

"V

7

*

- ^y-

-Ji'Ajfe
,

.............

\°yiicc,l -’Wi

-

rJP] 1 awu/aiYQ
* 'C^N ^J^iy

3j(Br>
I

,• ■ jfo ■n
a6nu 1,61,4
* ’7_S
j

IBDi3oipuo.jqp
life:**,'!

.

